<html>
<title> - OVERSIGHT OF DOE'S STRATEGY FOR THE MANAGEMENT AND DISPOSAL OF USED NUCLEAR FUEL AND HIGH-LEVEL RADIOACTIVE WASTE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







  OVERSIGHT OF DOE'S STRATEGY FOR THE MANAGEMENT AND DISPOSAL OF USED 
             NUCLEAR FUEL AND HIGH-LEVEL RADIOACTIVE WASTE

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2013

                               __________

                           Serial No. 113-77




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

86-675 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 _____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Ohio                   HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)












                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................    27
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................    28
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    29
    Prepared statement...........................................    30
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    31

                               Witnesses

Ernest J. Moniz, Secretary, Department of Energy.................    32
    Prepared statement...........................................    35
    Answers to submitted questions...............................    95

                           Submitted Material

Letter of June 28, 2013, from Mr. Shimkus to Mr. Moniz, submitted 
  by Mr. Shimkus.................................................     3
Letter of July 22, 2013, from Peter B. Lyons, Assistant Secretary 
  for Nuclear Energy, Department of Energy, to Mr. Shimkus, 
  submitted by Mr. Shimkus.......................................     5
Report, ``The Report to the President and the Congress by the 
  Secretary of Energy on the Need for a Second Repository,'' 
  December 2008, Office of Civilian Radioactive Waste Management, 
  Department of Energy, submitted by Mr. Johnson.................    62

 
  OVERSIGHT OF DOE'S STRATEGY FOR THE MANAGEMENT AND DISPOSAL OF USED 
             NUCLEAR FUEL AND HIGH-LEVEL RADIOACTIVE WASTE

                              ----------                              


                        WEDNESDAY, JULY 31, 2013

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
room 2123 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Hall, Whitfield, 
Murphy, Latta, Harper, McKinley, Bilirakis, Johnson, Barton, 
Upton (ex officio), Tonko, Green, Capps, McNerney, Dingell, 
Barrow, Matsui, and Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Gary 
Andres, Staff Director; Charlotte Baker, Press Secretary; David 
Bell, Staff Assistant; Sean Bonyun, Communications Director; 
Allison Busbee, Policy Coordinator, Energy and Power; Annie 
Caputo, Professional Staff Member; David McCarthy, Chief 
Counsel, Environment and the Economy; Brandon Mooney, 
Professional Staff Member; Chris Sarley, Policy Coordinator, 
Environment and the Economy; Peter Spencer, Professional Staff 
Member, Oversight; Tom Wilbur, Digital Media Advisor; Jeff 
Baran, Democratic Senior Counsel; Alison Cassady, Democratic 
Senior Professional Staff Member; and Caitlin Haberman, 
Democratic Policy Analyst.
    Mr. Shimkus. I would like to call this hearing to order. I 
want to thank the Secretary for coming. I would like to 
recognize myself for the 5-minute opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Today, we review the ``Department of Energy's Strategy for 
the Management and Disposal of Used Nuclear Fuel and High-level 
Radioactive Waste.'' We are pleased to have Secretary Moniz 
with us, looking forward to hearing his testimony.
    In 2008, after decades of research, DOE filed an 8,700-page 
license application at the Nuclear Regulatory Commission for 
permission to construct a repository at Yucca Mountain. In 
2009, the administration unilaterally decided to cancel the 
Yucca Mountain program and sought to withdraw the license 
application. The NRC, which is mandated under the Nuclear Waste 
Policy Act to review the license, denied DOE's request but not 
before the then-NRC chairman directed the staff to cease its 
review, an affair this committee investigated at length. The 
matter of whether the NRC should resume its review, of course, 
has now been pending for quite some time before the DC Circuit 
Court of Appeals.
    Three weeks ago, 335 Members of the House, including more 
than half the Democrats, voted to preserve funding for the 
NRC's Yucca Mountain license review in the Energy and Water 
appropriations bill. This vote showed a remarkable bipartisan 
agreement that the NRC should continue its work as an 
independent safety regulator and issue a decision on whether or 
not Yucca Mountain would be a safe repository. After over 30 
years and $15 billion, the American people deserve to know the 
NRC's independent, objective conclusion.
    And, Mr. Secretary, I would also just add that regardless 
of what the results are, this scientific research at the 
conclusion would be helpful for any reason, any future 
repository. The research developed on Yucca Mountain and 
finalizing the scientific research would be helpful as we move 
in other directions if we were to do that. So it is very 
important to finish the scientific report.
    In light of all this, DOE's new waste strategy very much 
represents the administration's effort to start from scratch as 
if the Nuclear Waste Policy Act doesn't exist or at least as if 
most of it doesn't exist.
    At the end of June, I sent a letter to the agency asking 
basic questions about the legal authority and funding for the 
actions DOE is currently undertaking. At this time, I would 
like to ask that my letter, together with DOE's response and 
attachment, be included in the hearing record.
    Without objection, so ordered.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shimkus. DOE's response cited a few convenient sections 
of the Nuclear Waste Policy Act as providing the authority for 
the Department to conduct certain work. But, and I want to 
underscore this, the agency did not cite Section 302(d) 
regarding the use of the Nuclear Waste Fund, which states: ``No 
amount may be expended by the Secretary under this subtitle for 
the construction or expansion of any facility unless such 
construction or expansion is expressly authorized by this or 
subsequent legislation. The Secretary hereby is authorized to 
construct one repository and one test and evaluation 
facility,'' which, of course, with the law is Yucca Mountain.
    DOE estimates the cost of starting over to be $5.6 billion 
for just the first 10 years. At the end of those 10 years, DOE 
projects to have only a pilot facility operating with a 
repository not expected to be operational until 2048. Ladies 
and gentlemen, that is 65 years after Congress first passed the 
Nuclear Waste Policy Act and after the reactors we have 
operating today have most likely closed.
    DOE's Strategy would require legislation but Secretary 
Moniz indicated in our hearing last month that the 
administration does not intend to propose legislation. DOE is 
in this situation because the White House decided not to follow 
the law that Congress has already passed. With this Strategy, 
DOE expects to simply write off $15 billion in favor of a pilot 
facility that might or may not get sited after this 
administration ends. I firmly believe the public deserves to 
know the truth about Yucca Mountain. We all need to know about 
all the money that has been spent and the science behind it not 
just for ourselves but for our children and our grandchildren. 
We deserve a permanent solution, not just the hope of a 
temporary fix.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared Statement of Hon. John Shimkus

    Today we review the Department of Energy's Strategy for the 
Management and Disposal of Used Nuclear Fuel and High-level 
Radioactive Waste. We are pleased to have Secretary Moniz with 
us and look forward to hearing his testimony.
    In 2008, after decades of research, DOE filed an 8,700-page 
license application at the Nuclear Regulatory Commission for 
permission to construct a repository at Yucca Mountain. In 
2009, the administration unilaterally decided to cancel the 
Yucca Mountain program and sought to withdraw the license 
application. The NRC, which is mandated under the Nuclear Waste 
Policy Act to review the license, denied DOE's request but not 
before the then-NRC Chairman directed the staff to cease its 
review--an affair this committee investigated at length. The 
matter of whether the NRC should resume its review, of course, 
has now been pending for quite some time before the DC Circuit 
Court of Appeals.
    Three weeks ago, 335 House members--including more than 
half our Democrats--voted to preserve funding for the NRC's 
Yucca Mountain license review in the energy and water 
appropriations bill. This vote showed a remarkable bi-partisan 
agreement that the NRC should continue its work as the 
independent safety regulator and issue a decision on whether or 
not Yucca Mountain would be a safe repository. After over 30 
years and $15 billion, the American people deserve to know the 
NRC's independent, objective conclusion.
    In light of all this work, DOE's new waste strategy very 
much represents the administration's effort to start from 
scratch as if the Nuclear Waste Policy Act doesn't exist or at 
least as if most of it doesn't exist.
    At the end of June, I sent a letter to the agency asking 
basic questions about the legal authority and funding for the 
actions DOE is currently undertaking. At this time, I'd like to 
ask that my letter together with DOE's response and attachment 
be included in the hearing record. DOE's response cited a few 
convenient sections of the Nuclear Waste Policy Act as 
providing the authority for the Department to conduct certain 
work.
    But the agency did not cite Section 302(d) regarding the 
use of the Nuclear Waste Fund, which states:
    ``No amount may be expended by the Secretary under this 
subtitle for the construction or expansion of any facility 
unless such construction or expansion is expressly authorized 
by this or subsequent legislation. The Secretary hereby is 
authorized to construct one repository and one test and 
evaluation facility.''
    Which is, of course, Yucca Mountain.
    DOE estimates the cost of starting over to be $5.6 billion 
for just the first 10 years. At the end of those 10 years, DOE 
projects to have only a pilot facility operating with a 
repository not expected to be operational until 2048--ladies 
and gentlemen, that's 65 years after Congress first passed the 
Nuclear Waste Policy Act and after the reactors we have 
operating today have likely closed.
    DOE's Strategy would require legislation but Secretary 
Moniz indicated in our hearing last month that the 
administration does not intend to propose legislation. DOE is 
in this situation because the White House decided NOT to follow 
the law that Congress has already passed.
    With this Strategy, DOE expects to simply write-off $15 
billion in favor of a pilot facility that might, or might not, 
get sited after this administration ends. I firmly believe the 
public deserves to know the truth about Yucca Mountain, and our 
children and grandchildren deserve a permanent solution not 
just the hope of a temporary fix.

    Mr. Shimkus. And with this, I would like to yield now to my 
colleague, Mr. Tonko, the ranking member of the subcommittee, 
for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. And welcome, Secretary 
Moniz. Thank you for appearing before this subcommittee on a 
very important topic this afternoon.
    For decades, nuclear power plants have provided electricity 
through the fleet of reactors located across our country. Over 
the same period, we have generated substantial amounts of waste 
that have yet to be secured in a long-term storage facility. We 
have debated this issue. We have funded research and 
development. We have passed laws designating a storage facility 
and have held numerous oversight hearings over the years. There 
have been reports by the National Academy of Sciences, the 
Government Accountability Office, industry and nongovernmental 
groups, and then most recently, as we all know, the President's 
Blue Ribbon Commission. But we still have not solved the 
nuclear waste problem.
    We have a long-term storage facility and yet we do not. We 
do not have interim storage facilities or a policy of 
establishing them, and yet we do. I don't know what else you 
would call the storage facilities at each power plant site 
around the country. They are now de facto interim storage 
facilities. If nuclear power is going to continue to play a 
significant role in delivering baseload electrical power, we 
need a resolution to this situation. It will not be easy and it 
will be most likely expensive. But the alternative is also 
expensive and provides less safety, less security than a 
functioning, ordered process for dealing with spent fuel.
    I realize that many people feel this resolution is to 
complete the process to open Yucca Mountain. Well, the Yucca 
Mountain facility is not open at this time and it does not 
appear it will be open in the near future. In the meantime, 
spent fuel continues to accumulate and penalty fees continue to 
accrue. It appears to me that it is worth examining 
alternatives to current law and the current situation. Partisan 
bickering will not solve this situation and strictly adhering 
to past or current positions will not solve this problem 
either. The administration's strategy, based on the work done 
by the Blue Ribbon Commission in 2012, also has its challenges 
and its unknowns.
    If we are to pursue a system that includes both interim and 
long-term storage of waste, how do we proceed? How many interim 
sites will be needed? How much waste can or should be stored 
there? And what time period qualifies as interim? Where will 
they be located? How do we ensure the transportation to these 
sites is done and done safely? Are there States and localities 
willing to host repositories, either interim or permanent? What 
are the costs and can we access the necessary funds in the fund 
established to deal with this problem?
    I do not expect to hear definitive answers to all of these 
questions here this afternoon. Today's hearing does, however, 
give us an opportunity to examine all options for moving 
forward. In any case, it appears congressional action is 
needed, and I am willing to work with my colleagues to address 
this issue. I do not see much future for nuclear power if we do 
not find a way to deal with this issue.
    Again, Mr. Secretary, I thank you for being here this 
afternoon and I thank you, Chairman Shimkus, for holding this 
very important hearing.
    With that, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the chairman of the full 
committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman, for holding this 
hearing and certainly for your leadership on the issue. And, 
Secretary Moniz, we certainly appreciate you being here as well 
this afternoon.
    During your tenure as Secretary, you and I will work 
together on a wide array of issues, and I certainly appreciate 
the time that we have spent since you have been Secretary and 
look forward down the road as well. I appreciate that dialogue 
on a number of issues. But certainly the nuclear waste disposal 
is a great concern for me and one that I sank my teeth into 
early on when I came onto this committee and myself and Mr. 
Towns, with Mr. Dingell's help, we were able to broker a pretty 
good deal back in the '90s.
    You know, the Nuclear Waste Policy Act is the law on the 
subject, and as Chairman Shimkus stated, that means Yucca 
Mountain. Shutting down the repository program, the 
administration did not elaborate on a technical or safety 
concern, merely that it was ``unworkable.'' This was followed 
by the former Nuclear Regulatory Commission chairman, who 
unilaterally ceased the staff's review of the license 
application one month--one month--before a key safety 
evaluation report was to be publicly released with the agency's 
conclusion about the safety of Yucca.
    Electricity consumers pay for the disposal of civilian 
spent nuclear fuel and taxpayers pay for disposal of nuclear 
waste from the Atomic Energy Defense program. In Michigan, our 
consumers alone have paid nearly $600 million into the fund. 
Fifteen billion was invested in this repository program and got 
us within just a month of knowing whether we have a 
scientifically safe and sound location. And after spending that 
15 billion, the public certainly should have the right to know 
what the NRC concluded. Instead, the strategy unfortunately 
abandoned that investment, expecting consumers and taxpayers to 
foot the bill for another 5.6 billion for the first 10 years to 
start really back at square one.
    By the end of this fiscal year, DOE will have spent nearly 
$80 million in support of that strategy. And I realize that is 
is the result of an omnibus appropriation for fiscal year 2012 
and a continuing resolution for '13 and I strongly support the 
efforts of the House Appropriations Committee to correct this 
situation.
    The House Energy and Water appropriation bill did clarify 
that the Nuclear Waste Fund is only to be used for its intended 
purpose: Yucca Mountain. The bill also eliminated the burden 
currently shouldered by the taxpayer for the administration's 
decision to start over.
    So questions also have arisen about whether the Nuclear 
Waste Fund would be adequate under DOE's new approach. GAO 
doesn't believe it is. Previous cost estimates indicated the 
fund would be adequate to finish building and operating Yucca, 
but GAO questions whether the fund would be adequate to cover 
the costs of pursuing an alternate repository, in addition to 
two interim storage facilities and multiple transportation 
campaigns.
    The administration touts its strategy as saving taxpayer 
money by mitigating DOE liability for failure to accept and 
dispose of spent fuel, and we have asked the GAO to analyze 
that. Last August, a year ago, GAO said that Yucca could be 
completed faster than a new effort to build interim storage, 
thus making Yucca the best option for mitigating taxpayer 
liability.
    I certainly remain committed to ensuring that consumers get 
the repository that they have paid for and that the costs to 
the taxpayers are minimized. And right now, it seems as though 
Yucca does remain the clear answer to both of those problems. 
And it is the law.
    So, Mr. Secretary, I look forward to our continued dialogue 
in the weeks and months ahead to solve a long-term nuclear 
waste disposal issue.
    I yield back my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared Statement of Hon. Fred Upton

    Thank you, Chairman Shimkus, for holding this hearing and 
for your leadership on this issue. Secretary Moniz, thank you 
for being here.
    During your tenure as Secretary, you and I will work 
together on a wide array of issues. I also appreciate the 
opportunity for an ongoing dialogue on the issue of nuclear 
waste disposal, which is an issue of great concern to me, and 
one for which I do have concerns with the department's 
strategy.
    First, the Nuclear Waste Policy Act is the law on this 
subject. As Chairman Shimkus stated, that means Yucca Mountain. 
In shutting down the repository program, the administration did 
not elaborate on a technical or safety concern, merely that it 
was ``unworkable.'' This was followed by the former Nuclear 
Regulatory Commission chairman unilaterally ceasing the staff's 
review of the license application one month--one month before a 
key safety evaluation report was to be publicly released with 
the agency's conclusions about the safety of Yucca Mountain.
    Electricity consumers pay for the disposal of civilian 
spent nuclear fuel and taxpayers pay for disposal of nuclear 
waste from the atomic energy defense program. Michigan 
consumers alone have paid nearly $600 million into the fund. 
$15 billion was invested in the repository program and got us 
within one month of knowing whether we have a scientifically 
safe and sound location. After spending $15 billion, the public 
should have a right to know what the NRC concluded. Instead, 
DOE's strategy unfortunately abandons that investment, 
expecting consumers and taxpayers to foot the bill for another 
$5.6 billion for the first 10 years to start over from square 
one.
    By the end of this fiscal year, DOE will have spent nearly 
80 million taxpayer dollars in support of the strategy. I 
realize this is the result of omnibus appropriations for FY 
2012 and a continuing resolution for FY 2013. I strongly 
support the efforts of the House Appropriations committee to 
correct this situation. The House Energy and Water 
Appropriations bill clarifies that the Nuclear Waste Fund is 
only to be used for its intended purpose: Yucca Mountain. The 
bill also eliminates the burden currently shouldered by the 
taxpayer for the administration's decision to start over.
    Questions also have arisen about whether the Nuclear Waste 
Fund would be adequate under DOE's new approach. GAO doesn't 
believe it is. Previous cost estimates indicated the fund would 
be adequate to finish building and operating Yucca Mountain, 
but GAO questions whether the fund would be adequate to cover 
the costs of pursuing an alternate repository, in addition to 
two interim storage facilities and multiple transportation 
campaigns.
    The administration touts its strategy as saving taxpayer 
money by mitigating DOE liability for failure to accept and 
dispose of spent fuel. We've asked GAO to analyze this. Last 
August GAO said that Yucca Mountain could be completed faster 
than a new effort to build interim storage, thus making Yucca 
Mountain the best option for mitigating taxpayer liability.
    I remain committed to ensuring that consumers get the 
repository that they have paid for and that the costs to the 
taxpayers are minimized. Right now, Yucca Mountain remains the 
clear answer to both of those problems. And it's the law.
    Mr. Secretary, I look forward to our continued dialogue in 
the weeks and months ahead in the effort to solve our long-term 
nuclear waste disposal.

    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the ranking member of the full committee, Mr. 
Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Mr. Chairman, in 1982 Congress passed the 
Nuclear Waste Policy Act. The Act sought to establish a fair 
and science-based process for selecting two repository sites 
for spent nuclear fuel and high-level radioactive waste. Under 
this approach, no one State or locality would bear the entire 
burden of the Nation's nuclear waste. In the years that 
followed, the Department of Energy began evaluating a number of 
potential repository sites.
    Then, just 5 years later, in 1987, Congress made the 
decision to designate Yucca Mountain in Nevada as the sole site 
to be considered for a permanent geologic repository. There was 
no plan B. This decision was widely viewed as political and 
provoked strong opposition in Nevada. Ever since Congress 
decided to short-circuit the site selection process, the State 
of Nevada and a majority of its citizens have opposed the Yucca 
Mountain project.
    In 2002, President Bush recommended the Yucca Mountain site 
to Congress. Using the State veto procedures set forth in the 
Nuclear Waste Policy Act, Nevada then filed an official Notice 
of Disapproval of the site. Congress proceeded to override 
Nevada's veto by enacting a resolution that was reported by 
this committee.
    Twenty-five years after the 1987 amendments to the Nuclear 
Waste Policy Act, it is clear that this Washington-knows-best 
approach has not worked. The Department of Energy has 
terminated its Yucca Mountain activities.
    President Obama wisely sought a new approach. He directed 
Secretary Chu to charter a Blue Ribbon Commission to perform a 
comprehensive review of U.S. policies for managing nuclear 
waste and to recommend a new strategy.
    Last year, we heard testimony from the co-chairs of the 
Blue Ribbon Commission on the recommendations that resulted 
from their 2-year effort. Since then, the Department of Energy 
has released a strategy for implementing many of those 
recommendations.
    The Commission recommendations and the DOE's strategy 
deserve our serious consideration. They raise a number of 
important policy questions such as whether a new organization 
should be established to address the nuclear waste problem, how 
nuclear waste fees should be used, and whether one or more 
centralized storage facilities should be developed in addition 
to one or more geologic repositories.
    These are policy questions that require a legislative 
response. Answering these questions requires an open mind and a 
willingness to move past a narrow obsession with Yucca 
Mountain. The Senate appears to be moving forward. Four 
Senators recently introduced bipartisan nuclear waste 
legislation. The bill may not have the final answer to every 
question, but it represents a genuine effort to get past 
ideology and begin grappling with these tough issues. We should 
seek a similar constructive approach in the House. If we pound 
the same old drumbeat on Yucca Mountain, all we will get is 
more gridlock, which serves no one well.
    Secretary Moniz, you do us a great service by appearing 
today before this subcommittee. It is unusual to have a 
Department Secretary testify before this subcommittee. We have 
had Cabinet officials who testify before the full committee. It 
is a testament to your commitment on this issue.
    You were on that Blue Ribbon Commission and are a true 
expert on nuclear waste disposal. We should all listen very 
carefully to what you have to tell us today.
    Thank you, Mr. Chairman, and look forward to the testimony 
of the Secretary.
    Mr. Shimkus. And I thank my colleague. The gentleman yields 
back his time.
    And I just want to reiterate I agree with the ranking 
member that we do appreciate you coming here. We know it is 
extraordinary for a Secretary to come to a lowly subcommittee, 
but we are pleased to have you.
    And with that, I would like to recognize you for 5 minutes 
for your opening statement.

   STATEMENT OF ERNEST MONIZ, SECRETARY, DEPARTMENT OF ENERGY

    Mr. Moniz. Thank you, Mr. Chairman, but I will start by 
disputing your characterization as lowly. I think and actually 
I would say, as you both have said, it may be a bit unusual but 
I really appreciate the chance to come here and to start a 
dialogue on this important issue. As you know, I have been 
working on this issue, thinking about this issue for a long 
time, and I come here in a sense of hopefully we can 
pragmatically find a path forward.
    So, Chairman Shimkus and Upton and Ranking Members Tonko 
and Waxman, members of the committee, thank you again for 
inviting me here to discuss nuclear waste issues and the 
activities at the administration is ongoing to meet the 
challenge of managing and disposing of used nuclear fuel and 
high-level radioactive waste.
    As was stated in January of this year, the administration, 
Department of Energy released its strategy for the management 
and disposal of used nuclear fuel and high-level radioactive 
waste based on the recommendations of the Blue Ribbon 
Commission on which, again, I did have the pleasure of serving 
under the leadership of Lee Hamilton and Brent Scowcroft.
    The administration clearly embraces the principles of the 
Commission's core recommendations, supports the goal of 
establishing a new, workable, long-term solution for nuclear 
waste management. I would also like to observe, as was noted, 
that a bipartisan group of Senators has introduced a bill 
adopting the principles of the Blue Ribbon Commission. I 
testified before that Senate Energy Committee yesterday and was 
encouraged by the progress they had made towards addressing the 
most complex of issues. And I appear today before this 
committee to reinforce that the administration is ready and 
willing to engage with both Chambers of Congress to move 
forward.
    Any workable solution for the final disposition of used 
fuel and nuclear waste must be based not only on sound science 
but also on achieving public acceptance at the local, State, 
and tribal levels. When this administration took office, the 
timeline for opening Yucca Mountain had already been pushed 
back by 2 decades, stalled by public protest and legal 
opposition with no end in sight. It was clear the stalemate 
couldn't continue indefinitely.
    Rather than continuing to spend billions of dollars more on 
a project that faces such strong opposition, the administration 
believes a pathway similar to that the Blue Ribbon Commission 
laid out, a consent-based solution for the long-term management 
of our used fuel and nuclear waste is one that meets the 
country's national energy security needs, has the potential to 
gain the necessary public acceptance, and can scale to 
accommodate the increased needs for future that includes 
expanding nuclear power and deployment.
    The strategy lays out plans to implement with the 
appropriate authorizations from Congress--and we do need those 
authorizations--a long-term program that begins operations of a 
pilot interim storage facility, advances toward the siting and 
licensing of a larger interim storage facility, and makes 
demonstrable progress of the siting and characterization of 
repository sites to facilitate the availability of one or more 
geological repositories.
    Certainly, consolidated storage is a critical component of 
an overall used fuel and waste management system and offers a 
number of benefits such as offering an opportunity to remove 
fuel from shutdown reactors, meeting waste acceptance 
obligations of the Federal Government sooner, and reducing the 
Government's liabilities caused by delayed waste acceptance.
    No matter how many facilities or what specific form they 
take, we believe a consent-based approach to siting is critical 
to success. The administration supports working with Congress 
to develop a consent-based process that is transparent, 
adaptive, and technically sound, as recommended by the 
Commission. The Commission emphasized that flexibility, 
patience, responsiveness, and a heavy emphasis on consultation 
and cooperation will all be necessary in the siting process and 
in all aspects of implementation.
    The strategy also highlights the need for a new waste 
management and disposal organization to provide the stability, 
focus, and credibility to build public trust and confidence. 
Again, there are multiple models that exist along a continuum 
from a Government program to Federal corporations. But whatever 
form the new entity takes, organizational stability and 
appropriate level of autonomy, leadership continuity, oversight 
and accountability, and public credibility are all critical 
attributes for future success.
    Finally, the Department has also initiated the Blue Ribbon 
Commission recommended revisiting of the decision to co-mingle 
commercial used fuel and defense waste.
    So we are facing a unique opportunity to address the needs 
of the back end of the nuclear fuel cycle by setting it on a 
sustainable path and providing the flexibility needed to engage 
potential host communities and anticipated advancements in 
technology. We need to move forward with tangible progress 
toward used fuel acceptance initially from closed reactor sites 
and providing more certainty for the nuclear industry. This 
process is critical to assure the benefits of nuclear power are 
available to current and future generations.
    And I will be happy to answer any questions that you have, 
Mr. Chairman. Thank you.
    [The prepared statement of Mr. Moniz follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Shimkus. Thank you, Mr. Secretary. Now, I would like to 
recognize myself for 5 minutes for the first round of 
questions.
    Mr. Secretary, DOE's strategy is built on the premise that 
States will volunteer to host interim storage or a repository 
facility. Your testimony mentions reports that ``a number of 
communities are exploring the possibility of hosting a 
consolidated storage facility.'' So the question is what States 
have indicated interest in hosting a facility?
    Mr. Moniz. First, I want to clarify, Mr. Chairman, that of 
course at this stage we are not engaging in any kind of 
negotiations or anything of that type. However, there have been 
a number of public reports, and in fact, one county has in fact 
passed a resolution expressing interest. Based also upon the 
experiences in Europe, we believe there are reasons for 
optimism that that can happen.
    Mr. Shimkus. So we don't have States that are showing 
interest right now nor do we have Governors or U.S. Senators 
who are making a pitch for their State to be considered?
    Mr. Moniz. Well, it is certainly premature for any so-
called pitch because right now we don't even have the 
authorities to move forward.
    Mr. Shimkus. Well, no, it is not unlikely with the Blue 
Ribbon Commission and with the statements by this 
administration for States to have come forward and tried to 
organize their own political support with the Governor's office 
and their sitting Senators to be making this pitch that we 
would consider it. I mean there is nothing in law that says 
they can't start trying to mobilize public support in their 
State for following up on this proposal, is there?
    Mr. Moniz. Well, no. And again, as I have said, there have 
been certainly reports in the media----
    Mr. Shimkus. But you can't tell us of any States which have 
done that initial work other than this one county in some 
State?
    Mr. Moniz. Well, one county that is in Texas, I mean, it 
was in public. A public resolution was passed. Recently, there 
were media reports which I have not attempted in any way to 
confirm, but there were statements made in Mississippi. There 
have been a number of statements made. But again, until we have 
the authorities, can put out a request for proposals, then I 
think frankly our position to provide some technical support 
for developing the information for potential communities I 
think would be premature frankly.
    Mr. Shimkus. Well, it seems to me that a majority of these 
siting efforts and up with local community supporting a 
facility, maybe this county, and State-level officials opposing 
it. In fact, if I remember, the history of Yucca Mountain was 
the State General Assembly passed a resolution in support of 
the initial siting of Yucca Mountain.
    We also have, you know, Nye County v. Nevada, Private Fuel 
Storage v. Utah, and your written testimony mentions consent-
based areas that might be successful, i.e., Sweden and Finland, 
but you fail to mention England, a consent-based approach that 
the Commission touted, and what happened to that consent-based 
approach?
    Mr. Moniz. These are tortuous paths so----
    Mr. Shimkus. So it was not successful as an----
    Mr. Moniz. Yes, we will----
    Mr. Shimkus. So, I mean, my point is, what makes you 
believe that another consent-based approach somewhere in this 
country is not going to end up 30 years later and $15 billion 
in the hole just like we have right now at Yucca Mountain?
    Mr. Moniz. Well, look, we all know all of these issues 
around nuclear waste take time. One example that, you know, it 
is not a high-level waste repository but----
    Mr. Shimkus. Which is a lot different than what we are 
talking about.
    Mr. Moniz. But in WIPP with the transuranic facility we did 
have a similar situation with the State and now we have a very 
successful----
    Mr. Shimkus. But I have personal knowledge of a U.S. 
Senator who fought against that as the Attorney General who is 
now a sitting U.S. Senator from that State. So----
    Mr. Moniz. Yes.
    Mr. Shimkus [continuing]. We better be careful. I think 
this illusion that this consent-based approach is going to be 
panacea I am not sure is supported by the facts.
    Another thing that the Blue Ribbon Commission that you are 
also promoting is that incentives are a key to success. And the 
estimated cost of this effort from the beginning is 5.6 billion 
over 10 years. Why not offer this money to Nevada?
    Mr. Moniz. Again, the recommendation is around a consent-
based approach. Any State and community can come forward.
    Mr. Shimkus. Part of the problem with the State of Nevada 
is they say show me the money. We don't believe you will follow 
through and there are not going to be any additional benefits. 
Wouldn't $5.6 billion to a State that has a struggling economy, 
they could rebuild its roads, bring in rail lines, and probably 
continue to do what we have and the Department of Energy has 
done with UNLV, continue to support their advanced nuclear 
energy technology, don't you think that would be a good lure?
    Mr. Moniz. Again, we are advocating a consent-based 
approach. Any State can come forward, and we do believe that 
research, materials testing, characterization facilities are an 
important part of the storage program and it presumably would 
be part of a possible ``incentive'' program.
    Mr. Shimkus. Thank you, Mr. Secretary. And I yield to Mr. 
Tonko for 5 minutes for questions.
    Mr. Tonko. Thank you, Mr. Chair.
    For the last few decades, the nuclear waste problem has 
been intractable. I think the Blue Ribbon Commission 
recommendations and the Department of Energy strategy document 
are helping to strike up conversation about where we go from 
here. Congress has an important role to play in finding 
solutions along with the Departments and the Commission.
    Secretary Moniz, the Blue Ribbon Commission recommended a 
consent-based siting process for one or more centralized 
interim storage facilities and one or more permanent 
repositories. My understanding is that under current law the 
only repository site that can legally be considered is Yucca 
Mountain, and interim centralized storage is not an option in 
the absence of Yucca. Is that correct?
    Mr. Moniz. I believe that is a correct reading of the----
    Mr. Tonko. So legislation would be necessary to establish a 
new siting process that ensures a project has the consent of 
the State and local governments?
    Mr. Moniz. Yes, sir. In fact, the Blue Ribbon Commission 
noted that almost all of the major steps required new statutory 
authorities.
    Mr. Tonko. OK. Thank you. The Blue Ribbon Commission 
recommended that a new organization be created to manage and 
dispose of the Nation's nuclear waste. That is contemplated in 
the DOE's strategy, too. Would congressional action be needed 
to establish an independent agency and transfer the necessary 
functions and resources to that agency?
    Mr. Moniz. Yes, sir. It would be.
    Mr. Tonko. There are also tricky funding and appropriations 
issues that need to be addressed to make sure that the funds 
put aside for constructing a repository or storage facility can 
actually be used for that purpose. Congress would need to 
address those issues through legislation, I believe. Is that 
correct?
    Mr. Moniz. Yes, sir. And again, if I may comment, we 
emphasized in the Commission and it is also true in the 
administration's strategy, that is what is most important is 
that whatever form the organization takes, it has the proper 
authorities. Key among those is a proper access to the funds.
    Mr. Tonko. Thank you. And it sounds to me like DOE has 
taken an important step in developing a strategy, but you can't 
solve this problem alone, can you?
    Mr. Moniz. Correct, sir.
    Mr. Tonko. So there is a bipartisan effort in the Senate to 
develop legislation to begin addressing these very tough 
issues. We haven't seen any effort on the House side, though. 
House Republicans seem unwilling to move past their fixation on 
Yucca Mountain. So my question would be while the Republicans 
seem to be waiting for a resolution to a pending lawsuit 
seeking to require the Nuclear Regulatory Commission to 
continue its work on its withdrawn DOE license application for 
Yucca, but a court opinion can't fix the funding problems or 
establish a new organization to handle the waste or and the 
staunch opposition to Yucca in Nevada, can it?
    Mr. Moniz. That is correct. And I would just add that, 
again, our view is that quite independent of the court 
decision, we should have these parallel tracks, the storage and 
repository development, and for that we will need the new 
authorities.
    Mr. Tonko. Mr. Secretary, what message would you share with 
members of the subcommittee and the broader committee who 
remain focused exclusively on Yucca Mountain?
    Mr. Moniz. Well, again, our view is that we have obviously 
been having this stalemate over Yucca Mountain. There is a very 
good chance this may continue for some time. There are many 
steps needed. Even if the court were to rule for the NRC to 
proceed, there are still other actions of Congress, many 
actions in the State, et cetera. And again, our main message is 
that it will work out one way or the other but let's move 
together on taking some practical steps that require new 
authorities that will move the ball forward, provide more 
confidence to industry, and start getting the Government 
accepting waste in the earliest possible time.
    Mr. Tonko. What is the perceived timeline here if we are to 
move forward and with the ultimate goal of having a new 
repository available? Is there a certain given timeline that 
you can imagine would be required at a minimum?
    Mr. Moniz. Well, again, the administration strategy noted 
that we feel that we can certainly move if we have authority, 
let's say, this year, then we can move on the first interim 
storage site within a decade. That would allow us, for example, 
to move fuel away from the closed reactor sites, which would 
be, I think, an important step, but that a repository is likely 
to take decades to actually get functioning.
    Mr. Tonko. Thank you. Thank you, Mr. Secretary. And, Mr. 
Chair, I yield back.
    Mr. Shimkus. I thank my colleague. I would just remind him 
of the vote on the floor, 335 voting for Yucca, 118 Democrat, 
so it is just not a Republican fixation.
    Now, I would like to yield to the chairman of the full 
committee, Mr. Upton, for 5 minutes.
    Mr. Upton. Well, thank you, Mr. Chairman.
    And, again, I really appreciate, Mr. Secretary, you being 
here and sharing your comments. This is such an important issue 
for the country and you are right, we don't want gridlock on 
this. I would note it has been bipartisan in terms of trying to 
move a path forward for a couple of decades actually. And 
certainly your willingness to engage and to move the ball 
forward is very much appreciated.
    And as Mr. Shimkus just said, and the votes we have had the 
last couple of years, not only this year but last year, the 
votes--326 to 81, 335 to 81, 337 to 87--is a pretty clear 
indication that the House at least has a very strong bipartisan 
majority towards trying to get this issue resolved. I would 
note that Mr. Dingell and myself wrote an op-ed piece about a 
month ago or so again urging the court to try and help resolve 
this and allow the NRC to move forward.
    But let me go back. When you testified before our committee 
in June, Chairman Shimkus asked if you were aware of any 
technical or scientific issues that would prevent Yucca from 
being a safe repository, and you responded at that time, ``this 
is an NRC decision ultimately to be taken.'' And I certainly 
agree. And the public debate would clearly benefit from the NRC 
completing the independent assessment of Yucca.
    Fortunately, we know that both the NRC and DOE do have the 
funds to support the completion of the NRC's safety evaluation 
report. However, we are all waiting for that DC Circuit Court 
of Appeals--maybe it will be coming this afternoon; who knows--
which seems to be taking an inordinate amount of time compared 
to a number of other cases that they have had.
    One of the issues that concerns me is what the ultimate 
cost of DOE's new strategy would be to the consumers and the 
taxpayers. We know that in '09, the Fee Adequacy Assessment 
showed that the fee was adequate to fund Yucca Mountain. 
However, I am going to quote from DOE's Secretarial 
Determination of the adequacy of the Nuclear Waste Fund fees in 
January of this year before you are there. It said, ``the 
consent-based approach to facility siting set forth in the 
strategy makes it impossible to assign meaningful probabilities 
to any geologic medium, and by extension, any cost estimate.'' 
Those were their words. So do you know whether the Nuclear 
Waste Fund today will be adequate to pay for all the facilities 
contained in the DOE strategy?
    Mr. Moniz. Mr. Chairman, certainly my understanding of the 
revised analysis that was done in response to the court, it 
looked at--I may get this not quite--I think it was something 
like 42 different scenarios into the future and found that with 
continuation of the one-mill-per-kilowatt-hour fee, that kind 
of rested kind of in the middle of the various scenarios. And 
so the argument was that at this stage the one-mill-per-
kilowatt-hour fee would seem to be an appropriate place to go 
but there is considerable uncertainty of the lifetime costs 
depending upon which of those scenarios ends up being followed.
    Mr. Upton. Do you know whether the Nuclear Waste Fund could 
absorb the $9 billion write-off for abandoning Yucca?
    Mr. Moniz. Well, if one looks at the ensemble of the 
scenarios in that Fee Adequacy Reassessment, the uncertainties 
of the spread was much, much larger than the amount that you 
have said. So that would again be in the uncertainties that we 
have today to be realized only over decades.
    Mr. Upton. Yes. So for us in Michigan, that 1/10-of-a-mill 
fee has meant $600 million in essence collected from Michigan 
ratepayers. And so if you know Michigan at all, we have got one 
plant no longer operating, the Big Rock plant. I have two in my 
district, two facilities that are currently operating, and they 
have both run out of room so they are doing dry storage. I know 
Mr. Dingell has got a facility in his district as well.
    So ultimately, we really do need this to be resolved and 
get on a glide path that can assure that there will be one safe 
place, at least one safe place for the high-level nuclear 
waste. And I appreciate your willingness to work with us and 
with our committee to ultimately get this thing done.
    Mr. Moniz. If I may comment, I think the situations that 
you have described are exactly what motivated the Blue Ribbon 
Commission discussions that we feel, and the administration has 
agreed with this, that moving to an initial kind of fast track 
pilot interim storage facility could handle the fuel from those 
shutdown reactors, and that would allow, you know, restoration 
of that site to other activities.
    And of course we know that a substantial fraction of plants 
are running out of space and that is where the consolidated 
storage site--the issue is fuel acceptance. I mean that is the 
key issue for the plants. And this would allow us to start to 
move the fuel and both alleviate the issues at the plants and 
lower the liabilities for the Government by beginning to move 
the fuel. So that is why I mean, again, we think that a 
parallel track of the storage and repository or repositories 
will give us the flexibility and the adaptability to start 
moving and except fuel in the next decade.
    Mr. Upton. I yield back.
    Mr. Shimkus. The chairman's time is expired.
    The chair now recognizes the ranking member, Mr. Waxman, 
for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    Secretary Moniz, I thank you again for being here today to 
discuss the administration's strategy for managing the 
country's nuclear waste.
    Over the last 2 years, this not lowly but very important 
subcommittee has heard testimony from a number of witnesses on 
the nuclear waste issue, including testimony from the State of 
Nevada about why many Nevadans oppose Yucca Mountain nuclear 
waste depository. Martin Malsch, testifying on behalf of the 
State of Nevada, told the committee ``opposition to the Yucca 
Mountain project in Nevada was not always a given.'' But 
Congress and Federal agencies took several actions that 
destroyed the State's trust in the process and locked in 
opposition.
    I would like to ask you a few questions about how to move 
beyond the Yucca Mountain stalemate and learn from our mistakes 
in Nevada. In your testimony you say, ``any workable solution 
for the final disposition of used fuel and nuclear waste must 
be based not only on sound science and also on achieving public 
acceptance at the local, State, and tribal levels.'' Let's 
start with sound science you say is necessary. What are the key 
scientific questions that need to be answered to satisfy 
concerns about the safety of nuclear waste disposal?
    Mr. Moniz. Well, there are a number of scientific 
questions. Ultimately, it comes down to understanding the form 
of the waste package, its interaction with the host 
environment, and the potential for having some elements go into 
the environment and propagate over long periods of time. That 
is what is a very detailed analysis looking at both geology, 
hydrology, and the materials issues around integrity of the 
package.
    Mr. Waxman. The State of Nevada and Clark County raised 
particular concerns about how EPA and other Federal agencies 
set safety standards for Yucca Mountain alleging that these 
standards were tailored to make sure Yucca met them. The State 
of Nevada told our committee that these changes ``utterly 
destroy the credibility of the program.'' How should EPA and 
other Federal agencies approach the regulatory process to 
ensure that any safety standards are both sufficient and 
credible with concerned stakeholders?
    Mr. Moniz. Well, again, if I go back to the Blue Ribbon 
Commission recommendations, the Commission emphasized that what 
really needs to be set first are kind of generic safety 
standards before one starts tailoring to an individual site. So 
again, we think that the way that the Yucca Mountain decision 
was made, A) raises this problem, as you have referred to many 
times, in terms of it was not a consent-based process and that 
in itself created conditions. It also had the effects of highly 
restricting what the Department could do over many years in 
terms of exploring different geologies and it basically did not 
have this approach, as I mentioned, where one such generic 
safety standards that one then applies to various characterized 
local sites.
    Mr. Waxman. So it could apply to a number of multiple 
sites?
    Mr. Moniz. Yes.
    Mr. Waxman. Having updated generic standards will also 
support the efficient consideration as you look at----
    Mr. Moniz. Yes. And then that would inform the regulatory 
process. And as we have all said, particularly when you look 
also, you know, the Nuclear Waste Policy Act also had a cap of 
70,000 tons and we know very well that even if there were no 
nuclear reactors built, we would be way, way past that amount. 
We have to look at the questions of other repositories, 
certainly be prepared for that possibility.
    Mr. Waxman. Now, no project will ever enjoy universal 
support so how do you envision defining consent? In the case of 
Nevada, the Yucca Mountain project enjoys some local support 
but faces strong opposition from the State and key counties. 
What can the Federal Government do to win support of a whole 
State that is wary of hosting a repository or interim storage 
facility even if the facility enjoys local support?
    Mr. Moniz. Well, again, we believe or at least I should say 
I believe that ultimately it is a very iterative process based 
upon, as I said in my testimony, continuous open cooperation 
and consultation at all levels. As we said earlier, and I think 
it is an example again--I will concede to the chairman's point 
that clearly the WIPP facility in New Mexico is a transuranic 
waste facility, not high-level waste, but the fact is that was 
a case where it took many, many years. There was litigation 
involved to win the confidence and trust all along the chain of 
responsibility. And now, as a result, well, I think we are into 
now our second decade of a highly successful operation there.
    Mr. Waxman. So for the Congress, the take-home message 
should be that we can tackle this problem by ensuring the 
Federal agencies, or any new organization, has the authority it 
needs to implement a consent-based process that is transparent 
and rooted in science. With that----
    Mr. Moniz. That ultimately is the overarching, most 
important recommendation of the Commission.
    Mr. Waxman. Thank you. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time is expired.
    The chair now recognizes the chairman emeritus, Mr. Barton, 
for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    You know we are having another hearing on high-level 
nuclear waste when members of the audience are already asleep.
    Mr. Shimkus. Wake up.
    Mr. Barton. I am not going to name names, but his initials 
are D.G.
    But, Mr. Secretary, thank you for being here. And when I 
was a young man, some members of the audience have heard me 
tell the story, but it was my job to brief the then-Secretary 
of Energy on a proposed piece of legislation at the Department 
of Energy that came to be known as the Nuclear Waste Policy Act 
of 1982. And they felt that if an Aggie engineer could explain 
a bill to an oral surgeon, that we ought to be able to get it 
through the Congress. And we did, and who would have dreamed 
that in 2013 we would have the current Secretary of Energy 
debating yet again another way to find a path forward on the 
storage of high-level nuclear waste?
    My good friend from Illinois, the subcommittee chairman, 
asked you a question about what States might compete if we 
adopted your consent-based approach or the Department's 
consent-based approach? I would postulate that my State of 
Texas might actually offer to compete. The county in West 
Texas, Loving County, has already passed a resolution at the 
county level and has been engaged in Austin with the Governor 
and the Texas legislature. While it is never a given, certainly 
I think the State of Texas might adopt an approach where, on a 
local option basis, a county or an entity could compete for an 
interim storage facility.
    I also know that at Yucca Mountain, we have spent $15 
billion and I think the subcommittee and the full committee 
chairman are absolutely correct in trying to get value for the 
taxpayer dollars and the ratepayer dollars that have been spent 
on that facility.
    Again, I would ask as a question if we were to adopt 
through legislation, as you have at least suggested we might, a 
dual-track approach of an interim storage facility while we are 
waiting to license a permanent repository, that would not 
preclude Yucca Mountain being chosen as either the interim 
facility and/or possibly the permanent repository. Is that not 
correct?
    Mr. Moniz. Yes, I would agree. We view these as two linked 
but independent pathways.
    Mr. Barton. OK. And I believe I am correct, too, that under 
current law Yucca Mountain has been legally empowered to be an 
interim facility for storage. Is that not correct?
    Mr. Moniz. I would have to clarify that, Mr. Chairman 
Emeritus.
    Mr. Barton. Well, I think I am correct.
    Mr. Moniz. OK. Well, I will take, you know----
    Mr. Barton. I think lots of things, not all of them are 
correct, so maybe I am wrong on that. But I believe----
    Mr. Moniz. When you were a practicing engineer and I was a 
practicing scientist, we were always correct.
    Mr. Barton. Yes. You have talked in your testimony about a 
pending court case, and I think it is fair to say that the 
majority of the committee is very frustrated that the court 
should have ruled, has yet to rule. Do you have any indication 
of when we might get a ruling on the legality of what the Obama 
administration did in shutting down the Yucca facility?
    Mr. Moniz. No, sir. I have no insight whatsoever to as when 
a ruling would come, but I assure the committee, and as the 
administration has spoken, that whatever the ruling is, we will 
act appropriately and help to carry it out.
    Mr. Barton. Well, Mr. Chairman, I want to say in closing 
that I am a strong supporter of Yucca. In your absence, I went 
to the floor a week before last and opposed several amendments 
against Yucca. So I am pro-Yucca. But I don't want to have to 
serve as long as John Dingell has already served to finally 
find an answer to the high-level waste issue. And if we can 
adopt some sort of a dual approach were we push forward on 
licensing Yucca as a final repository while also letting States 
compete on an interim storage basis, I for one on the majority 
side would be supportive of that approach with the appropriate 
safeguard and caveats about the money and the effort that has 
already been spent at Yucca Mountain.
    So I thank the Secretary and his department for their 
efforts, and I hope that since we, this morning, passed an SGR 
fix that nobody thought could happen, this could be two in a 
row if we can pass a high-level waste bill out of this 
committee. That would be a tremendous accomplishment on your 
watch and Mr. Upton's watch and Mr. Tonko's and Mr. Waxman's 
watch. And with that, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    And I can assure my colleague that as long as Yucca 
Mountain is still in the mix, we can move forward. But I have 
no indication that the administration wants to move forward on 
Yucca Mountain.
    So now, I recognize the gentleman from Michigan, Mr. 
Dingell, for 5 minutes.
    Mr. Dingell. Mr. Chairman, thank you for your courtesy, and 
I commend you for having this hearing.
    Welcome, Mr. Secretary, to the committee. I note here in 
2006 you wrote an article supporting Yucca Mountain. In 2011 
you wrote another article saying there needs to be an 
alternative. So to assist the committee with our judgments 
here, you now believe that Yucca Mountain is no longer an 
option as a permanent repository? Please answer yes or no.
    Mr. Moniz. Congressman Dingell, with all due respect, it is 
a little bit more than yes or no. I would note that the article 
you referred to actually it is an op-ed, I think, in 2006, did 
say that DOE had to take a fresh look at assessing the 
suitability of Yucca Mountain, and it was not a complete----
    Mr. Dingell. What does that mean, Mr. Secretary? That you 
think it is still a viable thing----
    Mr. Moniz. Well, again, we----
    Mr. Dingell [continuing]. Or that it is not?
    Mr. Moniz. The view is that it needs both science and 
public acceptance. The latter is not there and we are not 
seeing an end to the stalemate.
    Mr. Dingell. With all respect, Mr. Secretary, you have 
taken both sides of this issue. We have shot about $12 billion 
as near as I can figure, maybe 13 now, and the hole is still 
there and people are digging and doing things but nothing is 
happening. And we don't have any idea of when we are going to 
complete this problem or anything else.
    Now, Mr. Secretary, would you please provide additional 
information for the record regarding the viability of Yucca 
Mountain as a permanent repository? And I will let you come up 
with whatever it is you feel you should like to say on that 
particular matter.
    Mr. Moniz. Yes, sir. We will.
    Mr. Dingell. Now, Mr. Secretary, do you have any plans to 
reinitiate DOE's license application to the NRC for review and 
final decision on Yucca Mountain? Yes or no?
    Mr. Moniz. No, but again if the court reinstates the NRC 
licensing process, then we will support it as needed, assuming 
we have the funds to do so.
    Mr. Dingell. Now, Mr. Secretary, the Blue Ribbon Commission 
of which you were a member was not allowed to examine Yucca 
Mountain is a part of its study. Do you believe that doing a 
similar study again but including Yucca Mountain would be 
useful to the administration is a determinant of a path forward 
regarding nuclear waste storage? Please answer yes or no.
    Mr. Moniz. No, sir, I don't think that would be useful at 
this time. A commission like the Blue Ribbon Commission was 
very important to address the generic, nonsite-specific issues, 
as we discussed. For example, one of the problems is the need 
to get generic safety criteria before one starts moving into 
the consent----
    Mr. Dingell. So is the answer, Mr. Secretary, yes or no?
    Mr. Moniz. It was no. It was no, yes.
    Mr. Dingell. Yes or no?
    Mr. Moniz. It was a no, yes.
    Mr. Dingell. OK. Now, Mr. Secretary, most of BRC's 
recommendation is a consent-based approach where localities 
across the country could volunteer to be the site of a new 
repository. Under the best case scenario where all the units of 
government from local to State to Federal agree that there is a 
site that meets the needs of a repository of this kind, how 
long approximately would it take to create such a repository 
and how much would it cost?
    Mr. Moniz. Well, I think the estimate based upon the Fee 
Adequacy Assessment were approximately $3 billion for 
preselection, site evaluation for a repository, and 
approximately 8 to 9 for site characterization and licensing. 
So altogether in the 10 billion, $11 billion range.
    Mr. Dingell. Would you submit for the record your further 
comments on both of those two matters----
    Mr. Moniz. Yes, we would be pleased----
    Mr. Dingell [continuing]. How long and how much?
    Mr. Moniz. We would be pleased to.
    Mr. Dingell. Now, Mr. Secretary, the BRC report recommends, 
``access to the funds nuclear utility ratepayers are providing 
for the purpose of nuclear waste management,'' and you propose 
nonlegislative as well as legislative changes to achieve this 
goal. Can access to the funds be gained through nonlegislative 
means? Yes or no?
    Mr. Moniz. I would say yes and no. We strongly feel that 
legislation really is the appropriate way to go. I think the 
principle administration's proposal and really the Commission's 
is somehow we need to have the funds and the expenditures 
either mandatory or discretionary but in a way that does not 
have these funds competing with the other Government 
priorities.
    Mr. Dingell. Would you submit further comments for the 
record?
    Now, Mr. Secretary, would nonlegislative proposals 
recommend ways in which we could protect funds being deposited 
into the Nuclear Waste Fund? As you know, we have dissipated 
large sums of money. Can you answer yes or no to that, please?
    Mr. Moniz. Again, we feel legislation is the appropriate 
route.
    Mr. Shimkus. The gentleman's----
    Mr. Dingell. Mr. Secretary, in the 2011 article I mentioned 
earlier, you note that you were a strong supporter of nuclear 
energy developing new nuclear technologies and investing in 
other energy technologies. Based on recent appropriations and 
the recently passed Energy and Water appropriations from the 
House, do you believe that your department now has the 
resources to invest in these new technologies to prevent, as 
you put it, ``America being less competitive in the global 
technology market?'' Please answer yes or no.
    Mr. Moniz. Well, if the President's request is respected, 
then the Nuclear Energy Office has a very good plan in place to 
both support advanced reactor technology and the technology 
development for waste disposal. I would add to that, of course, 
beyond the appropriated amounts, the Department has made the 
conditional loan guarantee of $8 billion roughly to build 
``first-mover'' new nuclear plants, which is a critical issue 
for the future of nuclear power in this country.
    Mr. Shimkus. The gentleman's time is expired.
    Mr. Dingell. Mr. Chair, I am over my time and I thank you, 
Mr. Chairman.
    Mr. Shimkus. The chair now recognizes the gentleman from 
Texas, Mr. Hall, for 5 minutes.
    Mr. Hall. Thank you, Mr. Chairman.
    And, Mr. Secretary, I thank you for being here. Sometimes 
it is not good to have been here before like you have, the 
questions that you get put to you, but I will remember you on 
my Section 999. You were very knowledgeable on that. That is 
still up and you remember it was when you had energy at a 
certain level but we couldn't get it to the top of the water 
and we traded for technology from universities and others and 
paid them with the energy that we did get to the top of the 
water. So we didn't get it if they didn't get it to the top. 
They got it to the top and it is working and they are still 
trying to kill 999. I hope you will remember your position on 
that.
    Mr. Moniz. I remember your efforts very, very well leading 
that charge and I would say that as a fact I think the result 
has been some excellent, excellent research.
    Mr. Hall. It is still working.
    Mr. Moniz. Especially on the environmental footprint of 
unconventional oil and gas production.
    Mr. Hall. Yes, and thank you. And it is a pleasure to see 
you. I have a copy of a DOE presentation here from late June 
that indicates the size for the ``larger interim storage 
facility,'' the one slated to be open in 2025 and the DOE 
strategy is 70,000 metric tons. Is that right? That is your----
    Mr. Moniz. Yes, sir. And that would be preceded by the 
pilot plant.
    Mr. Hall. That is the entire inventory of what the nuclear 
industry is currently storing and the statutory size of Yucca 
Mountain, right?
    Mr. Moniz. Um-hum.
    Mr. Hall. Mr. Secretary, how hard is the administration 
going to answer or how are they going to make people believe 
when you say that that facility is going to be temporary?
    Mr. Moniz. Well, I think this is, again, the so-called 
linkage issue and we think it is very important----
    Mr. Hall. Right.
    Mr. Moniz [continuing]. That the action on the storage side 
is accompanied in parallel by adequate expenditures to 
establish one or more repositories.
    Mr. Hall. How will DOE overcome concerns that a lot of 
people are going to have on the part of communities that an 
interim site could become a de facto permanent site if no other 
community could be found to host a permanent disposal facility 
area?
    Mr. Moniz. You know, again, as I have said, I think this is 
going to be a long discussion, and we also noted that there 
should be flexibility into the system so that the individual 
communities and States who are stepping forward as potential 
hosts can negotiate the linkages that they feel are appropriate 
to lend them confidence.
    Mr. Hall. Well, the presentation--I don't know where it is 
there but I think we have seen it somewhere--estimates 
transporting the spent fuel to this larger interim storage 
facility at a rate of 3,000 tons a year, and that means that it 
would take over 23 years just to transport the spent fuel to 
the site. By the time the 70,000 tons was all transported, it 
would be 2048. That is a hard figure for me to think about 
being here and being sure that it happens just that way.
    Mr. Moniz. Yes, well, it is a major logistical challenge 
and I think no matter what repository, what storage sites one 
has, it is a major transportation campaign. I also served on a 
National Academy committee several years ago looking at 
transportation and a couple of things of note perhaps. One is 
that we felt that for the large campaign, a heavy reliance on 
trains would be a good thing. That is a big planning project. 
Secondly, we also noted that the number of used fuel movements 
in Europe already is approximately equal to all the movements 
we would need for 70,000 tons, and that has been handled in a 
pretty safe way.
    Mr. Hall. But 2048 is the projected date for opening a 
repository under DOE's strategy.
    Mr. Moniz. It is approximate.
    Mr. Hall. OK. Well, let me ask you, does that really make 
sense?
    Mr. Moniz. Well, I think, you know----
    Mr. Hall. I think you have been around a long time and you 
are very knowledgeable.
    Mr. Moniz. To be honest, the Department has had an issue of 
perhaps too often providing optimistic dates for big projects 
and maybe to be a little more conservative is a good idea.
    Mr. Hall. It is going to be hard to explain how they are 
going to spend 23 years transporting just to turn around and 
ship it all again. Is that going to cause some problems?
    Mr. Moniz. Well, of course, we are in no way precluding the 
possibility of----
    Mr. Hall. DOE estimated----
    Mr. Shimkus. The gentleman's time is expired.
    Mr. Hall. DOE estimated the transportation costs for 70,000 
metric tons to go to Yucca at 19 billion. I am anxious to watch 
what the analyzation is going to be on that. And my time really 
is up.
    Mr. Shimkus. The gentleman's time is expired. I would 
remind him that if everything would have gone upon plan, Yucca 
would have been open in 1998. Had the administration not pulled 
the plug when it did, we would be under construction right now.
    The chair now recognizes the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, for holding the 
hearing. I want to thank Secretary Moniz for joining us.
    The subcommittee examined the issue of nuclear waste 
storage in numerous hearings for the past several years. In 
2011 as ranking member of the subcommittee, I had the 
opportunity to visit Yucca Mountain with Chairman Shimkus, and 
I supported the use of Yucca Mountain in the past and still 
believe it is a terrible waste of taxpayer dollars to have this 
$12 billion facility sitting unused in the desert, although in 
all honesty, we are not going to sell that desert land for 
condos. And so I assume it will stay in our Federal land 
inventory. So maybe someday we have this hole underground, it 
can be used for long-term nuclear storage.
    The termination of the project, though, has postponed our 
Nation's efforts and delayed efforts to permanently dispose of 
used nuclear fuel. It is now envisioned it will be storing 
these materials and dry casks for decades, not much longer than 
the original intended purpose. What is DOE doing to support the 
long-term storage of used nuclear fuel in these dry cask 
storage systems? And I will go forward after that. Is there any 
program at DOE to be able to deal with the amount of nuclear 
waste we are seeing?
    Mr. Moniz. Yes, sir. There is work going on and also 
historically we have seen collaboration with EPRI in terms of 
looking at the dry cask storage longevity and a particular 
focus right now is on the materials issues and really whether 
we can confidently expect century-scale storage.
    Mr. Green. Between the 1980s and 2010 when Yucca Mountain 
was terminated, the Nation had invested billions of dollars in 
a scientific study at that site. The scope of this work spanned 
our entire national lab complex and many of our leading 
universities, a number of other respected institutions. What is 
the understanding and result of this study and what did we 
learn? How can we best apply the results of this work before 
going forward so that our investment is not wasted? You know, 
we know that at least politically in the foreseeable future, 
Yucca Mountain is not available, but we still need to plan for 
long-term storage, and I think that is what the Blue Ribbon 
Commission said.
    Mr. Moniz. Well, may I answer? Oh, yes. So, for example, I 
would pick out a couple of areas. One, it would be that I think 
the methodology was developed for developing large-scale 
reservoir and, if you like, a water basin modeling technique 
that one will need in any geology to go forward.
    Another, I would say, is understanding how the form of 
waste package interacts with the environment. So I think the 
methodology for how one does characterization and waste package 
geochemistry interactions has been advanced.
    Mr. Green. So we have learned something from the effort. 
And, as you know, and you served on it--and thank you for your 
service--the Blue Ribbon Commission recommended a consent-based 
approach to repository siting. With respect to Yucca Mountain 
project, there appears to be a division of the opinion. And 
having been out there, and I think we met with about every 
county official from around that area who very much supported 
it. Obviously, the State of Nevada and Clark County doesn't. 
And that may have been different back years ago when it was 
selected.
    How can we keep from having something, because these things 
take so long, getting permission? And there may be consent but 
a decade later all of a sudden the political will is not there. 
And, you know, I know there is a proposal for Pecos of Texas 
and New Mexico. There may be other locations but, you know, if 
we make a decision and the political will then changes, which 
is what seemed to happen out in Yucca Mountain, how did the 
Blue Ribbon Commission address that issue if we are going to 
look for consent now and expect that contract to last for 
decades?
    Mr. Moniz. Well, I think the Commission recognized that--
well, first of all, again let me repeat that in the case, 
again, of a transuranic repository in New Mexico, little bit 
different animal, but that case where again it took an 
evolution of the community/State interaction. Secondly, the 
Commission recognized that each of these negotiations will be 
somewhat different, but in a generic sense, recommended a 
process that would have various steps and commitments to 
continue, which kind of ratcheted up at each step of the 
negotiation.
    Mr. Green. I know I am almost out of time and I won't have 
time for all my questions, Mr. Chairman. I know of no country 
in the world that has long-term storage but our country is 
producing a lot of it and I would think it would be redundant 
to create a separate agency. I think we might need to fix the 
one we have so we don't add that bureaucratic delay in to 
getting forward with it.
    But I thank you for the time.
    Mr. Shimkus. The gentleman's time is expired.
    The chair now recognizes the gentleman from Mississippi, 
Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for taking your time to come 
visit with us on what is a very important and long-going issue.
    In 1980, Congress passed the Low-Level Waste Policy Act 
providing a framework for States to voluntarily join compacts 
and then work within the compact to site a low-level waste 
disposal facility. While this merely addressed low-level waste, 
it provides relevant experience about a consent-based process 
for nuclear waste disposal. After the Act was passed in 1980, 
it wasn't until 1985 that Congress approved the compacts and 
then it was 1990 before a disposal facility opened in Utah but 
only for Class A waste, the lowest class of low-level waste.
    Congress didn't approve the Texas/Vermont compact until 
1988, 18 years after the Act passed, and the disposal facility 
in Texas didn't open until 2011 after a 7-year licensing 
process. To date, 33 years after Congress passed the 1980 Act, 
34 States still remain without access to low-level waste 
Classes B and C disposal.
    So my question is in light of the limited success and 
lengthy process for consent-based siting for low-level waste, 
what gives you confidence that DOE will find an interim storage 
site for used nuclear fuel and have them operating 8 years from 
now?
    Mr. Moniz. Well, first, I would note that, first of all, 
there is some success, and again I go back to the WIPP example 
in New Mexico which is for transuranic waste. And again, it 
took a long time. This goes back to Mr. Hall's question. We 
prefer to be conservative and set 2048 because these things 
take time. And I think we just have to start on that path. I 
personally remain optimistic that we will have communities 
coming forward and then provide technical assistance so that 
they can be certain that they have the technology base to move 
forward.
    Mr. Harper. Well, given your role on the Blue Ribbon 
Commission, are you familiar with the private fuel storage 
project in Utah which is the only interim storage facility ever 
licensed?
    Mr. Moniz. Am I familiar with it?
    Mr. Harper. Are you familiar with that?
    Mr. Moniz. Yes. Yes. Um-hum.
    Mr. Harper. Do you know how long the NRC took to issue that 
license?
    Mr. Moniz. No, I do not, sir.
    Mr. Harper. OK. If I told you 8 years, would that surprise 
you?
    Mr. Moniz. No.
    Mr. Harper. OK. All right. Do you know the status of that 
license now?
    Mr. Moniz. No, I do not.
    Mr. Harper. OK. It is my understanding the consortium asked 
to the NRC to terminate the license late last year.
    Mr. Moniz. I see. Um-hum.
    Mr. Harper. So I think PFS is an example of how a local 
community, in this case the Goshute Indians, initially 
supported a project but State officials opposed it, just like 
the situation with Yucca Mountain. It is also an example of how 
licensing such a project is not as expedient as sometimes the 
DOE strategy suggests.
    So, you know, what we have here is a very serious issue. It 
is something that we have dealt with for now decades. I don't 
believe that the formation of a new Federal agency to oversee 
management of nuclear waste is the answer. I believe that that 
would just create additional delays. So I would hope that we 
could continue to work on this issue and I certainly want to 
thank you for your time today to come share this with us.
    And with that, I yield back.
    Mr. Shimkus. If the gentleman would yield.
    Mr. Harper. Yes, I will yield to the chair.
    Mr. Shimkus. And I would just highlight we did this when 
the Blue Ribbon Commission testified before us, and there is a 
map of Nevada. We talk about local interests. Two points of 
this is that all of the counties minus Clark have resolutions 
on record supporting Yucca Mountain. And then we talk about 
local issues and you use even in your testimony Finland and 
Sweden. A land base of that siting proposal which you would 
call local, do you know what would be local for Yucca Mountain? 
Who would be considered the local landowners? It would be the 
Federal Government. That is how far away and expansive the 
Federal property as Yucca. Who is local would be us. We are the 
local interest of concern, and if we are not, the local 
communities that all have gone on resolutions in support of 
Yucca, they are on record.
    So, you know, I am kind of getting tired of this bashing of 
Nevadans that they are all one side when there is a strong 
vocal group of Nevadans who want this, hence going back to the 
$5.6 billion that I think you should put on the table to help 
convince maybe the other folks from Nevada.
    So with that, I would like to recognize my colleague from 
California, Mrs. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman for it and thank you, 
Secretary, for being here today and participating.
    And, as you know, like it or not, nuclear waste is a 
reality. Part of that reality is that nuclear waste is going to 
be around for a long, long time, far beyond the lifetimes of 
our children and our grandchildren. But as the creators of this 
waste, I believe that we have a responsibility to put in place 
a long-term plan to store it safely. And in the absence of such 
a plan, however, spent nuclear fuel will continue to be stored 
for the foreseeable future onsite right at nuclear power plants 
like Diablo Canyon, which is in my Congressional District.
    I have been pleased to see more spent fuel being moved out 
of high density pools and into dry cask storage at Diablo 
Canyon and also across the country. These casks are more stable 
and safer, but they are not a permanent solution for spent fuel 
storage in my opinion. Do you agree?
    Mr. Moniz. Yes. As I said----
    Mrs. Capps. They are not a permanent solution----
    Mr. Moniz [continuing]. Century-scale looks to be the kind 
of scale.
    Mrs. Capps. Pardon?
    Mr. Moniz. We think the dry cask storage for the order of 
one century----
    Mrs. Capps. One century they will work but not a permanent 
solution--I mean we can't----
    Mr. Moniz. Not a millennium.
    Mrs. Capps. Not a millennium?
    Mr. Moniz. Right.
    Mrs. Capps. As we all know, implementing a permanent 
storage solution has proven to be quite difficult. I commend 
the administration for moving the ball forward with the Blue 
Ribbon Commission report and the strategy released earlier this 
year, but given the serious challenges that still lie ahead, my 
constituents and I remain concerned that Diablo Canyon could 
become a de facto long-term storage site. It has already been 
over 30 years since Congress first directed the Department of 
Energy to remove and store spent nuclear fuel from power 
plants. So, Mr. Secretary, what happens if it takes another 30 
years or even longer to implement a permanent storage plan? 
Does DOE have a contingency plan to handle long-term onsite 
storage of spent nuclear fuel?
    Mr. Moniz. Well, first, I think the general technical 
judgment is that continued onsite storage moving in from pools 
to dry casks is a reasonably safe approach but it is not a 
system that we want at all. And that is exactly why we feel 
that the strategy put out following the Commission's 
recommendations to aggressively pursue the parallel paths of 
consolidated storage and repositories is the right one and it 
gives flexibility, adaptability, and it won't be immediate. We 
think we have a chance to start moving some fuel in about 10 
years but only if we start now.
    Mrs. Capps. Right. So I will just move ahead. One of the 
most important elements of the Blue Ribbon Commission report 
and the DOE strategy is the consent-based approach for locating 
the permanent storage facility. Engaging local communities in 
this process is critical, especially for the consolidated 
facility, but it is also crucial to engage with the communities 
where the fuel is currently being stored and could be traveling 
through. I am very concerned about the transportation. Once a 
permanent site is found, how do we move this spent fuel safely? 
This is a top priority for my constituents in San Luis Obispo. 
They have serious concerns about the risks involved in moving 
the spent fuel safely through their communities, and they want 
their voices heard in this process. So to what extent is DOE 
engaging with communities where there is this storage now 
occurring and so many concerned constituents who are worried 
about how that transporting is going to happen through their 
communities?
    Mr. Moniz. So the Department has recently done a number of 
transportation studies, and again, I refer to the National 
Academy report of--6 or 7 years ago I was a member of that 
group as well. Again, I think two points, maybe one to 
reiterate is that the amount of fuel movement called for for 
all of the fuel we have today is very comparable to what Europe 
has already done with a very, very good safety record. However, 
clearly, we have to A) do it very well, but B) the report 
emphasized strongly the same thing as you have emphasized, the 
need to early on work with the communities along transit 
pathways, instruct in emergency response kinds of activities, 
communicate, know what is happening. That is very, very 
important.
    So I think as soon as we understand that we are moving 
towards a system to begin moving that fuel, we need to get very 
aggressive in that community outreach.
    Mrs. Capps. Well, I appreciate knowing that. I share your 
concerns about it and I yield back.
    Mr. Shimkus. The gentlelady's time is expired. And on her 
point, though, that I think in testimony yesterday the 
Secretary said Plan B is to leave on site. That was testimony 
yesterday. Is the Plan B right now----
    Mr. Moniz. Well, as I----
    Mr. Shimkus [continuing]. If all else fails----
    Mr. Moniz. When I said it, it is the ground truth. If we 
can't move it----
    Mr. Shimkus. Well, I am just trying to lay out the facts as 
was testified yesterday that Plan B would be to keep onsite.
    Mrs. Capps. Is it permanent? Are you----
    Mr. Shimkus. That is their Plan B.
    Mr. Moniz. If I may clarify, what I said again the ground 
truth is if we can't move it, it stays where it is. It is a 
totality. That is why we have to have the ability to move it.
    Mr. Shimkus. Just trying to get some transparency here, Mr. 
Secretary.
    Mr. Moniz. For that, we need the authorities from Congress.
    Mr. Shimkus. The chair now recognizes the gentleman from 
Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And, Mr. Secretary, 
it is good to talk with you again. Thank you for being here 
with us today.
    Most of DOE's current nuclear waste management activities 
rely on taxpayer funding appropriated in 2012 and under the 
Continuing Resolution for 2013. This means that the taxpayer is 
currently funding the costs of DOE's effort to start over, 
breaking the historic principle that the beneficiaries of the 
electricity, the consumers, pay the costs of disposal. For how 
long and for what cost does the administration support 
continuing the policy of having the taxpayer foot the bill?
    Mr. Moniz. Well, sir, I think, first of all, let me refer 
to the letter to Mr. Shimkus that he had read into the record 
looking at all of the activities and the authorities, et 
cetera. This, by the way, has been reviewed by our general 
counsel and by the Department of Justice to make sure all the 
authorities were proper in terms of what was used for 
appropriated funds and what was used by waste fund.
    But I think, as you referred it, to the 2012 Consolidated 
Appropriations Act, there was explicit language to look at fuel 
management and disposal activities. In my view, those are very 
generic activities. Frankly, those are some of the activities 
that the Department was proscribed from doing by the 1987 
action, and my view, to be honest, very mistakenly, that this 
research on the back end of the fuel cycle was always important 
and it is very important that we continue to do it now.
    Mr. Johnson. OK. Changing subjects a little bit, there have 
been inaccurate statements how Yucca Mountain can only hold 
70,000 metric tons, so even if we build Yucca, we will still 
need more than one repository. I would like to clarify for the 
record that is a statutory not a scientific limit.
    Mr. Moniz. Um-hum.
    Mr. Johnson. In the Yucca Mountain EIS, DOE analyzed, ``the 
total projected inventory of commercial spent nuclear fuel and 
high-level radioactive waste plus the inventories of commercial 
greater than Class C waste and DOE special performance 
assessment required waste.'' In DOE's 2008 report to Congress 
on the need for a second repository, DOE referenced studies of 
repository designs three times the area of the design used to 
accommodate the 70,000 metric tons and an independent study 
that concluded Yucca Mountain could accommodate from 4 to 9 
times the statutory limit. Mr. Chairman, I would like to insert 
DOE's 2008 report to the hearing record.
    Mr. Shimkus. Is there objection? Hearing none, so ordered.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Johnson. Mr. Chairman, DOE's July 22 response to 
Chairman Shimkus, I think, as you indicated, indicates that 
ongoing transportation activities are authorized under Section 
180 of the Nuclear Waste Policy Act and eligible to be paid for 
from the Nuclear Waste Fund. However, Section 302 of the 
Nuclear Waste Policy Act regarding use of the Nuclear Waste 
Fund stipulates ``no amount may be expended by the Secretary 
under this subtitle for the construction or expansion of any 
facility unless such construction or expansion is expressly 
authorized by this or subsequent legislation. The Secretary is 
hereby authorized to construct one repository and one test-and-
evaluation facility.'' Which, of course, as we know, is Yucca 
Mountain. So my question is how does the Department justify 
Nuclear Waste Fund expenditures on transportation for 
destinations other than Yucca Mountain?
    Mr. Moniz. Well, sir, first of all, I am not a lawyer and I 
think I may have to get back to you for the recommendation.
    Mr. Johnson. Neither am I so----
    Mr. Moniz. OK. We talk the same language.
    Mr. Johnson. We do.
    Mr. Moniz. But I think again all of the entries in those 
three tables that was sent were reviewed by general counsel at 
DOE. Secondly, I would note that it was my understanding those 
transportation studies were very generic. They would be 
applicable anywhere, and they certainly are not applied to the 
construction or expansion of any facility. So I can check on 
that with the lawyers but that would be my first reaction.
    Mr. Johnson. Yes, I would ask you to go back and check, Mr. 
Secretary----
    Mr. Moniz. OK.
    Mr. Johnson [continuing]. Because as I understand Section 
302, it seems pretty emphatic and pretty specific what the 
shalls and the shall nots pertain to.
    Mr. Moniz. OK.
    Mr. Johnson. OK. With that, Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back the time.
    The chair now recognizes the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Secretary, first, I want to thank you for bringing your 
technical expertise and your human communication skills to this 
difficult problem.
    My first question would be do you believe in your opinion 
that the technology exists for safe transportation and long-
term storage of high-level nuclear waste?
    Mr. Moniz. In the National Academy study that I referred to 
earlier certainly concluded that one has to execute but, yes, 
that it could be safe.
    Mr. McNerney. So what you have said is that we need both 
the science and we need the public acceptance for a local--so 
clearly, in Yucca Mountain, the public acceptance part of this 
has failed. Would you be a critic and tell me what you think 
went wrong in that process in getting that project to be 
acceptable in Nevada at Yucca Mountain?
    Mr. Moniz. Well, I am neither a lawyer nor a psychologist 
but I think, as was said earlier, I think the very prescriptive 
nature and frankly the change of process that led to the 
singling out of Yucca Mountain I think just inherently raised 
some opposition.
    Mr. McNerney. Do you think that that can be repaired, the 
damage that was done?
    Mr. Moniz. Well, we feel that consent-based process has a 
very good chance of being successful with the time taken to 
communicate, cooperate, and assistant technical analysis.
    Mr. McNerney. But at the very least, the Department has 
learned from that experience and probably won't make those same 
mistakes again?
    Mr. Moniz. I think we have all learned a hard lesson, yes.
    Mr. McNerney. Thank you. I have another question. Do you 
believe that high-level waste has enough potential future value 
to design repositories that the waste could be retrieved in the 
future if appropriate?
    Mr. Moniz. Well, if I may just kind of make sure we have 
our definitions in the same line, we are using high-level waste 
generally to apply to things like the defense waste where the 
things like plutonium have already been removed so they do not 
have energy value. But in the spent fuel or used fuel, as it is 
sometimes called from the commercial power reactors, they still 
contain plutonium, which certainly could be used for power 
production here and that is what is done in France, for 
example. I want to make very clear I am not advocating that, 
but technically, that is correct.
    Retrievability, however, independent of that, is probably 
something that will be important for public acceptance, at 
least over some time period.
    Mr. McNerney. Well, if you look at what is happening at the 
NIF program in Livermore, in order to use the NIF as a gateway 
to hybrid fusion reaction or commercial reactor, they would use 
spent fuel and use neutrons created in little fusion explosions 
to accelerate a heat-driven process. Do you know what I am 
talking about?
    Mr. Moniz. Yes, there are many----
    Mr. McNerney. There are values in this material.
    Mr. Moniz. Yes, there are many alternatives. You are 
referring to a process called spallation typically----
    Mr. McNerney. I didn't know the word.
    Mr. Moniz [continuing]. To make--well, to make neutrons and 
that you then do something else with. There is fusion, there is 
conventional fusion, there is inertial-confined fusion. These 
are all, shall we say, well into the future as possible energy 
sources but they are being researched.
    Another thing I just maybe mention is that there is a 
concept that is interesting potentially which one uses fusion 
for the purpose of making neutrons that then makes more nuclear 
fuel----
    Mr. McNerney. Right.
    Mr. Moniz [continuing]. Using depleted fuel, and I think 
that is the thing that you are probably referring to.
    Mr. McNerney. So the other question I have has to do with 
the concern about comingling of military versus civilian 
nuclear waste. What is the issue there? I don't understand why 
that is a concern or an issue.
    Mr. Moniz. Oh, well, in the 1980s that decision was made to 
combine them. That wasn't made in the context of the 1998 date, 
and so it was viewed that the defense programs could then be 
relieved of the need to independently develop a repository. 
Well, now, it is a different world. 1998 is past as far as I 
can recall. Also, since then, we have developed specific 
agreements with States like Idaho, for example, in terms of 
removal of not only spent fuel but of high-level waste.
    And so the Blue Ribbon Commission was not saying that 
technically one could not combine them but it does note that 
there are very different issues, different agreements. Also, 
the high-level waste for the defense waste so-called, as I said 
earlier, does not have energy value. Number two, it has 
different packaging. Number three, it typically was very low 
burn-up fuel. So it is typically much cooler than commercial 
waste and so, there is no judgment made, but we are going to 
reopen that, relook at the decision, and see if it would make 
more sense to keep them separate or keep them on the same 
track.
    Mr. McNerney. Thank you.
    Mr. Shimkus. The gentleman's time is expired. I would ask 
him to talk to me about Hanford on background. We can talk 
about it.
    The chair now recognizes the gentleman from Ohio, Mr. 
Latta, for 5 minutes.
    Mr. Latta. Thank you very much, Mr. Chairman. And, Mr. 
Secretary, again thank you very much for being with us this 
afternoon.
    And if I could go back to Chairman Shimkus' June 28 letter 
that he had written to the Department of Energy, the chairman 
raised questions about the legal authority under which DOE is 
conducting the various nuclear waste activities. It looks to me 
that DOE is picking and choosing which laws are convenient to 
follow. In the nuclear fuel storage and transportation section 
of DOE's response, I noticed that DOE sites the Nuclear Waste 
Policy Act Monitored Retrieval Storage, the MRS, provisions as 
the authority for pursuing interim storage activities. However, 
DOE's 2008 report to Congress on the demonstration of the 
interim storage of spent nuclear fuel from decommissioned 
nuclear power reactor sites state, ``in Section 141 of the NWPA 
authorized the Department to site, construct, and operate a 
Monitored Retrievable Storage, MRS, facility but restricted the 
ability of the Department to pursue this option by linking any 
activity under the section to milestones tied to progress in 
the development of the Yucca Mountain repository.''
    I guess the question I have is, given that the DOE has shut 
down the Yucca mountain program, how can DOE justify its 
activities on interim storage under the MRS provision? It is 
kind of a long question.
    Mr. Moniz. Well, again, sir, ultimately I am relying on the 
judgment of our general counsel in the Department of Justice 
and the spelling out the authorities that were in there. And I 
am also happy to respond more fully upon further research 
there. But again, in my view, the issues of researching for the 
whole back end of the fuel cycle, no matter what we pursue in 
terms of storage and repository program, we need to do that 
work that frankly was suspended for so long because of the 1987 
decision. But I will get a response----
    Mr. Latta. If I could ask if you could respond to the 
committee in writing on that, I would greatly appreciate it----
    Mr. Moniz. Yes.
    Mr. Latta [continuing]. Because I think it is very 
important point out there that needs to be----
    Mr. Moniz. I would be happy to.
    Mr. Latta [continuing]. Considered and responded to.
    Now, if I could follow up on another point in regard to the 
chairman's letter, DOE also indicated that the used fuel 
research and development activities are authorized under the 
Atomic Energy Act of 1954. And it is clear, however, that in 
the Nuclear Waste Policy Act and amendments enacted into the 
1987 law, Congress directed DOE not to conduct further 
repository research on sites other than Yucca Mountain.
    In its decision in the United States v. Estate of Romani, 
the United States Supreme Court stated, ``a specific policy 
embodied in a later statute should control our construction of 
the earlier statute even though it has not been expressly 
amended.'' And then the question I have then, Mr. Secretary, is 
how do you and the DOE justify ignoring the sections of the 
Nuclear Waste Policy Act while claiming to follow the others 
and then falling back to the Atomic Energy Act which so clearly 
has been superseded by the Nuclear Waste Policy Act?
    Mr. Moniz. Again, sir, I will include that in the detailed 
response because I am just not the person----
    Mr. Latta. Well, and again, you know, in reading your 
testimony, you know, I think it is very important because 
especially as we have known that we are looking at about $15 
billion have been spent at Yucca and, you know, I think if I 
remember right in your testimony, we are talking that it is 
looking like maybe another $19 billion is going to have to be 
expended because of having to find other places to deposit the 
nuclear waste. So if I am reading that correctly, is that 15 
billion and then another 19 billion on top of that?
    Mr. Moniz. Certainly north of 10, that is for sure.
    Mr. Latta. So we are talking $34 billion out there that is 
going to be expended when we already had a site Yucca, is that 
correct?
    Mr. Moniz. Well, again, going back to the waste fee 
adequacy analysis, it is consistent that a mill per kilowatt 
hour would cover all of these costs. So it is essentially 
nuclear power, you know, pay-as-you-go. And I think the exact 
cost will become sharper only as the future trajectory becomes 
more clear. But the one mill per kilowatt hour in the revised 
assessment is certainly consistent with covering the costs.
    Mr. Latta. Mr. Chairman, if I could ask for indulgence to 
ask one more question?
    Mr. Shimkus. It depends on how long.
    Mr. Latta. Short.
    Mr. Shimkus. I have got colleagues who would like to ask--
--
    Mr. Latta. When you say when it becomes sharper in looking 
at that, could I just ask what your definition of sharper when 
it comes to--you said when those numbers become sharper?
    Mr. Moniz. First of all, the trajectory of nuclear power, 
which clearly is an unknown today, will it grow substantially? 
Will it not? Are we going to have multiple repositories? Are 
going to have multiple storage sites and repositories at the 
same time? I think those are all the issues that that will have 
to be resolved to get the full lifecycle cost understood.
    Mr. Shimkus. The gentleman's time is expired. The chair now 
recognizes----
    Mr. Latta. I yield back. Thank you very much.
    Mr. Shimkus [continuing]. The gentleman from Georgia. Your 
time is expired, no time to yield back.
    The chair recognizes the gentleman from Georgia, Mr. 
Barrow, for 5 minutes.
    Mr. Barrow. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for joining us today. And I can't 
help but feel like you have been put in an incredibly difficult 
position. You didn't really get us here but it is good to have 
a friend in nuclear in your position even though you have got 
an impossible set of circumstances to deal with. I just want to 
ask you, explain it so an old county commissioner can 
understand it. What is it going to take, what is going to have 
to happen, and who is going to have to do what before we decide 
whether to go forward with Yucca or not?
    Mr. Moniz. Well, I think the initial issue will be the 
results of the current litigation with the NRC.
    Mr. Barrow. That has got to be decided.
    Mr. Moniz. That has to be decided and, as we have said, we 
will----
    Mr. Barrow. And you need some legislative authority to do 
anything different than what is being litigated in the lawsuit 
right now.
    Mr. Moniz. Again, we feel we should be pursuing these dual 
tracks in any event and that will require new authorities. 
Should the licensing go forward, the evaluation go forward at 
the NRC, again, a caution that there are still many, many other 
steps that need to be taken by the Congress and the State to 
move that project forward.
    Mr. Barrow. So what should those steps look like to mark 
what should we be doing?
    Mr. Moniz. Well, the first thing that I am really asking 
for and the administration asks for us to have the authorities 
to move forward on this parallel track.
    Mr. Barrow. Here is a concern I have got with that because 
I am representing a whole lot of taxpayers who gave their 
consent to this overall structure when they have been paying 
their utility bills and paying into a fund that was supposed to 
get them something. I remember it was the generators who gave 
their consent to this process when they gave their political 
assent to the laws that impose this burden on them and they 
also entered into these contracts. When they turn all this 
ratepayer money over to you all, they were supposed to get 
something in return.
    Now, my point is you talk about this is a pay-as-you-go 
system. We have been going pretty far down the road and we 
haven't gotten anywhere yet. So one question I would ask along 
those lines what do we do to reimburse those folks who paid a 
sum if we decide to abandon Yucca? What do we do to the 
ratepayers and the generators that extracted the money for that 
solution? What is going to happen to those ratepayers? How are 
they going to be made whole if we decide to go in another 
direction?
    Mr. Moniz. The one mill per kilowatt hour is to remove fuel 
from those sites, put it into Federal control where then the 
Federal Government has the responsibility----
    Mr. Barrow. That is for money that hasn't been collected 
yet.
    Mr. Moniz. But I am saying----
    Mr. Barrow. What about the money that has already been 
collected?
    Mr. Moniz. And, yes, sure, but the----
    Mr. Barrow. You say sure, but. It is----
    Mr. Moniz. Each kilowatt hour will ultimately bear a cost 
which is currently best estimate of a mill to manage disposal. 
There is no backing away from the Federal commitment to manage 
that process.
    Mr. Barrow. My question: What about the stranded asset of 
the investment that ratepayers have paid for years now if it is 
determined that that asset is going to be upended? How about 
covering their loss?
    Mr. Moniz. The Federal Government, the administration 
remains committed to moving that fuel as soon as possible. That 
is why we believe that this dual track strategy is the fastest 
way----
    Mr. Barrow. But if you move it to someplace other than what 
has been bought and paid for, you are going to add the cost of 
this other repository system, either this intermediate and 
permanent or this new permanent. My point is how do we 
compensate the folks who have paid for the facility that we are 
going to be walking away from if that is what we decide to do?
    Mr. Moniz. The estimate remains that the one mill per 
kilowatt hour is a very credible expectation for the cost of 
getting that fuel accepted and moved.
    Mr. Barrow. That is future revenues for future projects. I 
am talking about what you want to do about the issue----
    Mr. Moniz. All the way from the beginning, the current 
waste fund with its nearly $30 billion sitting in there----
    Mr. Barrow. How about money that has been collected that 
hasn't been spent yet? What are we going to do about that?
    Mr. Moniz. Well, I mean currently it is collecting interest 
and it is sitting there to be deployed. In fact, then the 
request for legislation would be to determine how a new waste 
organization has access to whatever combination of 
discretionary and mandatory funds required. But that $30 
billion or almost $30 billion is there for this purpose.
    Mr. Barrow. Well, I can speak for every county commissioner 
and city councilman who has got any zoning authority anywhere 
in the country that there is a problem here that I recognize a 
mile away, and again, you didn't invent this problem, but if 
you have got to zone a socially necessary use into an area that 
has got some controversy or some undesirable effects, you are 
going to have some problems with folks who don't want it in 
their back yard.
    And the problem with a consent-based basis that we are 
talking about here, one challenge that I see just as an old 
county commissioner is you have got folks who have got 
different ideas about what their back yard is. You might have a 
local government, the local community that is just dying to get 
the jobs and the infrastructure and the opportunities. You have 
got a State government that doesn't want it in their back yard. 
Or you might have a State government that wants it but a local 
government that doesn't want it in their back yard. Or you 
might have the State and local government on the same page and 
you have got some interest group somewhere that says it regards 
the whole country is their back yard or the planet as their 
back yard.
    So I don't want us to be looking to something that has 
never been found and it won't be found. I don't want to be 
looking for a unicorn in this picture. Thank you for your----
    Mr. Shimkus. I thank my colleague from Georgia and I would 
like to yield 5 minutes to the gentleman from Pennsylvania, Mr. 
Murphy, for 5 minutes.
    Mr. Murphy. Mr. Secretary, great to see you again, and 
thanks for coming to Pittsburgh this week.
    Mr. Moniz. Thank you.
    Mr. Murphy. One of the comments that was made in that 
roundtable you had was an energy company leader said it was 
important to have regulations that were science-based and 
enforced consistently so that they could predict our future. I 
worry about a consent-based approach because I am not always 
sure that it is based in science. I believe that pure science 
is best done without politics, and unfortunately, politics is 
often done without science.
    And we had some hearings prior to today where we learned 
the story of what happened when a new director of NRC came in, 
basically shut down the facility, got rid of employees, 
disposed of records, and sent us back in time. And it concerns 
me that that was politically driven and not scientifically 
driven.
    Now, help us, as I appreciate your commitment to wanting to 
move forward in this, but in March, Nye County, California, 
last year they notified DOE of their consent to have repository 
Yucca Mountain. DOE responded saying that Nevada doesn't 
consent. And, Mr. Secretary, your testimony refers to reports 
that a number of communities are exploring the possibility of 
hosting a consolidated storage facility and NRC staff has 
indicated four industries have expressed some level of 
interest. Has DOE or the representatives met with these 
entities? Can you give me a yes or no on that?
    Mr. Moniz. No, we are not and we don't have the authorities 
to begin any kind of a negotiation with these communities.
    Mr. Murphy. So isn't it fair that DOE meet with 
representatives from Nye County, Pennsylvania, or somewhere 
else if you are going to use a consent-based approach?
    Mr. Moniz. Oh, I am sorry. I believe some other officials 
have met with people from Nye County----
    Mr. Murphy. But people within DOE are not?
    Mr. Moniz. I am sorry?
    Mr. Murphy. But people from DOE are not meeting with folks 
in these other communities?
    Mr. Moniz. No, no, again, it is my understanding--I can 
clarify this later. It is my understanding that certainly some 
members of the Nuclear Energy Office have had discussions but 
nothing that I would call certainly a negotiation. We have no 
authorities to do that.
    Mr. Murphy. Well, regarding the interested entities, these 
four that were mentioned, have the Senators and Governors in 
the States where they are located endorsed hosting a 
consolidated interim storage facility?
    Mr. Moniz. No, sir, as far as my knowledge goes. But 
earlier, as Mr. Barton said, there is an example where a county 
in Texas has a public resolution----
    Mr. Murphy. Sure.
    Mr. Moniz [continuing]. Of interest and he said are engaged 
in discussions with the Governor and the State legislature. So 
that is an example where it is beginning and that is all--I 
think until we have a process in place----
    Mr. Murphy. Well, let me ask about this process. Have you 
done any analysis on the adequacy of the Nuclear Waste Fund to 
pay for both interim storage and final disposal facilities 
assuming the fund could be used for both purposes?
    Mr. Moniz. Again, the waste adequacy assessment looks at 
multiple scenarios and finds that there is a very, very wide 
range of lifecycle costs. The one mill per kilowatt hour----
    Mr. Murphy. But my point is, are you using the Nuclear 
Waste Fund to pay for interim and final disposal facilities?
    Mr. Moniz. That is again something that will have to be 
decided in Congress.
    Mr. Murphy. But is that something you would support?
    Mr. Moniz. The Blue Ribbon Commission supported it.
    Mr. Murphy. OK. And most of DOE's current nuclear waste 
management activities rely on taxpayer-funded appropriations in 
2012 and under the Continuing Resolution 2013. This means that 
taxpayers are currently funding the costs of DOE's efforts to 
start over, breaking the historic principle that the 
beneficiaries of electricity, the consumers, pay the cost of 
disposal. So for how long and for what cost does the 
administration support continuing the policy of having the 
taxpayers foot the bill? Is that part of your discussion?
    Mr. Moniz. Again, that is a very important part of 
Congress' discussion in terms of how it has chosen to do 
appropriations, discretionary appropriations or waste fund 
allocations.
    Mr. Murphy. Sure. Well, in that context, though, our 
concern is we have already spent 15 billion that we 
appropriated and then someone, for consent reasons or political 
reasons, decided to pull the plug on that. So our concern is if 
we put more money into this, we want to know there is a 
commitment from you and the Department of Energy to move 
forward.
    I was impressed with the article you wrote in Foreign 
Affairs 2011 where you talk about the importance of nuclear 
power and you also acknowledge the sensitivity you have to the 
Government paying billions of dollars in damages to energy 
companies and that the uncertainty of cost is a big problem 
with building more nuclear power plants. So in this context, 
you see the uncertainty of cost remains if we are ambiguous of 
where we are moving forward. So your commitment to move forward 
is so important.
    You mentioned the Blue Ribbon Commission with regard to 
moving forward, and you also said that we are in a stalemate 
and we have to be moving the ball forward. You said that today. 
So help this committee understand or build confidence in DOE's 
commitment to move forward on using Yucca Mountain as a 
permanent storage facility or, and what you have also talked 
about, a temporary one made for the next 100 years. There is 
land out there to do that as well. Are you committed to 
continue to move forward personally on this? Is the Department? 
Or are we going to see more holdups in this process?
    Mr. Moniz. Certainly I am committed. In fact, that is why I 
am here today. The administration is committed. The Department 
is committed. Of course, there is this recommendation about a 
new organization to be formed, and if that is done, then 
presumably a lot of those responsibilities would move to this 
new organization. But I think the point is the administration 
and the Government must be committed to executing this 
responsibility.
    Mr. Murphy. Well, we have been committed to a plan so far 
and it is frustrating to have the rug pulled out from under us. 
Thank you.
    Mr. Shimkus. The gentleman's time is expired.
    The chair now recognizes the gentlelady from California, 
Ms. Matsui, for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman, and thank you for 
holding a hearing on this important issue. And thank you, Mr. 
Secretary, for joining us once again. I commend your work with 
the Blue Ribbon Commission and I appreciate the Department of 
Energy's continued work on this matter.
    The administration's strategy for the management and 
disposal of used nuclear fuel and high-level radioactive waste 
makes significant contributions to this debate and I look 
forward to continuing this open dialogue with you on how best 
to address the safe deposit of our country's nuclear waste.
    My district of Sacramento, the Sacramento Municipal Utility 
District, otherwise known as SMUD, owns the decommissioned 
Rancho Seco nuclear power plant, so I have had an interest in 
issues with spent fuel management posed by permanently shutdown 
reactors for some time. I was heartened to see that the 
administration's strategy includes a pilot interim storage 
facility with an initial focus on moving fuel from shutdown 
reactors. Shutdown reactors represent a unique component in 
overall nuclear waste policy. As is the case with SMUD, removal 
of the spent fuel is many times the last major hurdle in the 
way of putting the land to a more beneficial use.
    The Blue Ribbon Commission and the administration both 
advocate that it should be a priority to move spent fuel from 
sites with permanently shutdown reactors and without an 
operating nuclear generating station. Do you agree that spent 
fuel from these sites should be prioritized?
    Mr. Moniz. That is certainly the administration's 
strategy's position.
    Ms. Matsui. I strongly support a pilot interim storage 
facility that removes all spent fuel from permanently shutdown 
sites. It seems to me that a successful pilot project could 
help repair public confidence in the Government's ability to 
manage the Nation's public waste.
    Mr. Moniz. Yes.
    Ms. Matsui. And what other benefits would a pilot project 
achieve?
    Mr. Moniz. Well, again, first and foremost, it would of 
course remove the fuel from those sites. I think it would have, 
as you have indicated, an enormous impact on saying that there 
is this commitment to accepting fuel by the Federal Government. 
We are accepting fuel. We are moving fuel. We are moving it 
safely and I think that would really add a big jolt of 
confidence to getting this whole program moving, not talking 
about it, but moving, moving fuel. That is the issue.
    Ms. Matsui. Now, in your testimony, you mentioned that DOE 
would conduct an analysis of initial used fuel shipments from 
shutdown reactors sites. Can you elaborate on what specific 
aspects this analysis will consider?
    Mr. Moniz. Well, I think the analysis at this stage, it has 
to be quite generic because of course what the geography would 
be of such a pilot facility will determine specific travel 
routes, et cetera, but I would say--and this is now my own 
personal speculation if you would like--I think for a first 
pilot facility in terms of modal issues, we probably will be 
talking, you know, trucking of casks on the highway. As the 
Academy report many years ago suggested, once we get into a 
very, very large-scale transportation of thousands of tons per 
year, then using trains as a major mode will be important.
    Ms. Matsui. So it is my understanding that the Federal 
Government has been transporting this nuclear waste and spent 
nuclear fuel in this country for some time now?
    Mr. Moniz. Um-hum.
    Ms. Matsui. That is right?
    Mr. Moniz. Yes, we have had thousands of shipments.
    Ms. Matsui. Yes. So can you tell us about that record and 
whether you are satisfied with the level of safety that has 
been achieved?
    Mr. Moniz. Certainly my understanding is that there has 
been a very, very safe record, and as I said, the similar 
record in Europe where more than 10 times as many movements 
have occurred has also been very good, at least that was the 
case a few years ago when I was on that Academy committee. To 
be honest, I haven't looked personally in the last 5 or 6 
years.
    Ms. Matsui. OK. Well, I believe moving spent nuclear fuel 
from decommissioned sites first should be a priority and that a 
pilot interim storage facility is a necessary step in the right 
direction in the overall management of our Nation's nuclear 
waste. And I do look forward to working with you, Mr. 
Secretary, and my colleagues on this committee to make real 
progress in this area. And I thank you very much----
    Mr. Shimkus. Can I have your last 35 seconds?
    Ms. Matsui. Yes, you may.
    Mr. Shimkus. Mr. Secretary, what is a crystalline 
formation, cutting the rock?
    Mr. Moniz. Granite, for example.
    Mr. Shimkus. And wasn't that exempted under the '87 
amendments to the Nuclear Waste Policy Act?
    Mr. Moniz. As I recall, I believe that----
    Mr. Shimkus. And there are 25 States that have this 
formation?
    Mr. Moniz. I don't----
    Mr. Shimkus. So if we go to obviously a second repository, 
those sites, based upon your testimony, or those States would 
still be then open and accessible for granite formations during 
high-level nuclear waste? Wouldn't that be correct?
    Mr. Moniz. Well, I think again that would be----
    Mr. Shimkus. States like Washington, Massachusetts, New 
Hampshire, Vermont, New York, Connecticut, Delaware, Maryland, 
and Virginia all could be considered----
    Mr. Moniz. I mean, again, as has been demonstrated 
internationally, there is a wide range of geologies that can be 
suitable for a repository.
    Mr. Shimkus. Thank you, Mr. Secretary.
    I now recognize the gentleman from West Virginia, Mr. 
McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. And, Mr. Secretary, 
thank you for going to Morgantown to visit the----
    Mr. Moniz. It was fun.
    Mr. McKinley [continuing]. National Energy Technology 
Laboratory.
    I wasn't here in Congress in '08 or '09. I didn't come 
until '11 so I am trying to get up to speed with all of this 
debate that is taking place, but I do have a fact finding from 
the Nuclear Energy Institute that indicates that in 2008 there 
were some 3,000 scientists across five laboratories and various 
major universities were involved in filing this application 
with the DOE for the permit. And then within a year's time, 
that permit was reversed. The application was reversed. Mr. 
Secretary, other than an election being taken place during that 
period of time, what happened? Was there a change in science or 
technology that DOE hadn't taken into consideration or was this 
decision to cancel the application merely political?
    Mr. Moniz. Well, in a similar vein, of course I was not 
here as well. However, I would note that, as we have stressed, 
that there are two essential conditions in our view. I mean one 
is good science and number two is consent.
    Mr. McKinley. Well, Mr. Secretary, what I am saying is what 
science changed between '08 and '09?
    Mr. Moniz. And there are two issues, science and consent, 
and the administration felt that on the consent basis this was 
simply not a workable project.
    Mr. McKinley. Was consent part of the law in '08?
    Mr. Moniz. It is a question of the ground truth, and the 
reality is the project moving forward? Does the project have 
the ability to capture all of the permits that it needs, which 
includes State permits? And so the project was deemed and 
declared not workable.
    Mr. McKinley. Engineers or contractors, it feels political. 
It doesn't feel like it has anything to do with science or 
technology. So the question you were asked several times now, 
the gentleman from Georgia was asking it; I heard Chairman 
Upton from Michigan raise the same question and using his 
numbers because I don't know what they are for West Virginia, 
but when he said Michigan again has taken away from the 
taxpayers and businesses, everyone using the power, they have 
extracted $600 million from the residents of Michigan to pay 
for this facility. What have they gotten for that $600 million?
    Mr. Moniz. Well, first of all, the question----
    Mr. McKinley. And I heard your answer, well, the amount 
that is being extracted is fair. It will pay for the facility, 
but that is not the question they we are asking. What did we 
get for it? If we wind up ultimately abandoning the facility, 
what did they get for $600 million in Michigan?
    Mr. Moniz. The one mill per kilowatt hour has been paid in 
the rate base for all nuclear utilities for the Federal 
Government commitment to accept the fuel and move it from those 
sites. That commitment remains.
    Mr. McKinley. But they have spent 600 million and it hasn't 
happened yet, so what happens with the amount of money that has 
already been expended? Are we going to refund it to the 
individuals if we abandon and go to a different site?
    Mr. Moniz. As I think----
    Mr. McKinley. Because I believe you are trying to answer--
if I can put words into your mouth--that whenever the site is 
determined, that mill per kilowatt hour will be adequate to be 
able to facilitate this, but that is not the question. The 
question is what happens to the $600 million in Michigan that 
has already been expended? They don't have anything. There is 
nothing to show for it.
    Mr. Moniz. Again, the one mill per kilowatt hour is not to 
buy a facility. It is to buy a service. The service, as far as 
the utility concerned, is spent fuel removal. The failure to 
begin removing that fuel on February 1, 1998, has led to the 
payment of damages. Those damages are currently projected to go 
north of $20 billion back to the utilities because the service 
is not being provided. The service will be provided. That 
remains the commitment. And the funds in the meantime are, as I 
said earlier, accruing interest. In fact, I think in the 
current waste fund--I maybe not quite right on this--but I 
think something like $6 billion of it is interest that has 
accrued over the time. So it is a service being purchased. 
There was a decision a long time ago by this Congress in terms 
of how nuclear waste disposal would be paid for. The commitment 
remains. It is no different.
    Mr. McKinley. In closing, I know my time is almost up. Are 
you telling me that if this decision goes in our favor or it 
goes in the favor of Yucca Mountain, all of the investment we 
have made, will the President uphold that or is this going to 
be another DOMA, Immigration, and the Employer Mandate? Will he 
enforce this or would he waive this----
    Mr. Moniz. We have made very clear we follow the law. If 
the court directs----
    Mr. McKinley. He hasn't followed the law. That is the 
problem. He hasn't followed the law in other----
    Mr. Moniz. The law will be determined by this court 
decision that we are all awaiting, and if it directs the NRC to 
pick up the license, we will do our job to support that, given 
appropriations. It will be up to the funds to be supplied from 
discretionary or mandatory by this body and there will be many 
other conditions that have to be met, including by the 
Government, land withdrawals, there will be State permits, 
many, many issues. And again the judgment remains. When we put 
all of this together, it doesn't seem very workable.
    Mr. McKinley. Mr. Chairman, I apologize for running over.
    Mr. Shimkus. No, you did fine. Thank you. The gentleman 
yields back his time.
    And, Secretary, you have been great. We have got one more 
member here who is actually the chairman of the Energy and Air 
Quality Committee, so he does have part of the big nuclear 
portfolio up here and I am glad that he stayed around. And I 
would like to recognize him for 5 minutes.
    Mr. Moniz. I am aware of his portfolio.
    Mr. Whitfield. Well, thank you, Chairman Shimkus.
    Mr. Secretary, we appreciate your being with us today and I 
just have to say honestly that I don't envy you trying to 
defend the administration on this issue.
    I was reading the testimony and it said ``the 
administration supports working with Congress to develop the 
consent-based process that is transparent, adaptive, and 
technically sound.'' And it is my argument that we already have 
the law on the books, the Nuclear Waste Policy Act, 1982, 1987. 
Democrats and Republicans made the decision to do it. And now 
this administration in 2009 made the decision to pull the plug 
after the Department of Energy had submitted its application in 
2008 at the NRC.
    And then Mr. Jaczko, who--so in my view, Harry Reid, 
President Barack Obama, and the chairman of the Nuclear 
Regulatory Commission basically made the decision they don't 
care what the Congress thinks, they don't care what the 
American people think, they are not going to abide by the 
Nuclear Waste Policy Act. And, as a result, we have spent--I 
have heard different figures--Mr. Barton said around 15 
billion, 13 billion, 14 billion for Yucca Mountain and no one 
talked about the judgments against the Federal Government as a 
result of the lawsuits because the Federal Government had 
breached its contract because it didn't have the ability to 
take possession of the waste, so that is another 12 or $13 
billion. And then the President decides, well, OK, we are going 
to pull the plug but we will establish a Blue Ribbon 
Commission, and now you all are asking for 1.3 billion and pay-
as-you-go another 5.6 billion over 10 years.
    And, you know, maybe I am biased but when I go to the 
Rotary Club and I talk about this kind of waste, it is really 
upsetting to people when you talk about a $16 trillion Federal 
debt that is growing every day and this judgment is growing 
every day. And so you really do wonder what is the President 
thinking about? We have a Federal law that has not been 
invalidated. The only reason we are now waiting for a decision 
of the courts is because the administration didn't act, so a 
lawsuit was filed. And so here we are. And I mean I have great 
admiration for you and your intellectual ability and your 
understanding of the issue, but I tell you, I think that Barack 
Obama is flat wrong on this issue and that the American people 
are going to suffer.
    Now, maybe that is my opening statement and I would be 
happy to give you an opportunity to respond if you want to. I 
am certainly not frustrated in any way but if you would like to 
respond, fine. If you----
    Mr. Moniz. Well, again, it would just be repetitive that 
Secretary Chu felt that the project would be unworkable and 
that is again based on the issue of public acceptance, which we 
consider to be equally important as the scientific criteria. 
So, again, as I said earlier, when the judgment is made in the 
litigation with the NRC, I think we will have a path forward 
there, whichever it is. But, again, I think I have come here 
today especially to try to, you know, present my perspective. 
It is the one of the Blue Ribbon Commission that we need to 
pursue these two tracks in any event. It will be our fastest 
approach to move fuel, to accept fuel, and we believe that is 
needed no matter what the repository pathway is. And I hope 
that we can work together to move the ball.
    Mr. Whitfield. And I would just say that, I mean, the 
President is out there every day talking about all-of-the-
above, and the nuclear energy is really being stagnant right 
now because of this waste issue. And if he is genuinely 
concerned about carbon emission, he should get off the dime and 
take some action to expedite this waste issue, taking care of 
this waste issue or we are going to have a pretty stagnant 
nuclear energy in the U.S., in my view.
    Mr. Moniz. If I may respond to that, I think the 
administration's actions are very consistent on nuclear power 
with the all-of-the-above strategy. The fact is after many 
years of talk, this administration moved out with the 
conditional $8 billion loan guarantee for first-mover nuclear 
plant construction in Georgia, AP 1000s. This administration 
launched the program and already decided on one license for a 
new small modular reactor to be constructed, and the 
administration feels that it is putting forward in fact the 
proposal for the most effective way to address waste management 
in a consent-based approach. So I think the ground truth, the 
ground facts speak for themselves.
    Mr. Whitfield. Well, Mr. Secretary, I may make one final 
comment. Every day the President, when he talks about energy, 
he talks about all-of-the-above and yet America is the only 
country in the world where you cannot build a new coal-power 
plant. So I don't see how he can say all-of-the-above.
    Mr. Moniz. Well, I would like to respond to that as well in 
a similar vein. I think, first of all, of course, the President 
has stated and I have stated and thousands and thousands of 
scientists have stated that it would be imprudent not to start 
addressing the greenhouse gas emission issue. So that is kind 
of a given in the administration's position. Now, given that, 
what does all-of-the-above mean? What it means in this case 
is--and I am going to go back and say there was a lot of 
talking the talk for many years. This administration put $6 
billion on the table for clean coal projects, eight major 
sequestration projects, one has started, two will start next 
year, five are in construction. ARPA-E has invested in more 
than 20 projects for novel capture technologies. So if we are 
going to establish carbon capture utilization--and I might add 
six of those eight projects have enhanced oil recovery as part 
of it. If we are going to establish the competitiveness of all 
of our resources in a low-carbon world, this is exactly what we 
need to do and the President moved out on these programs.
    Mr. Whitfield. Well, if I may make one final comment, I do 
hope that you ought to consider things other than just carbon 
capture and sequestration because there are a lot of other 
technologies out there that can be just as beneficial.
    Mr. Moniz. Well, in fact, if I may add--I am sorry, Mr. 
Chairman, one last thing----
    Mr. Shimkus. You have been very kind on all this time we 
have given, so of course you can continue.
    Mr. Moniz. So another example of this case was a week after 
the President's climate plan announcement in Georgetown, our 
department put out a draft solicitation for an $8 billion loan 
guarantee program for advanced fossil technologies across the 
board. We are waiting for input in September but we said, as 
examples, it could be dry fracking. It could be new carbon 
utilization technologies. It could be advanced fossil combined 
heat and power. So we are putting out the programs to establish 
fossil fuels as part of the low-carbon future.
    Mr. Shimkus. And reclaiming my time. And I want to thank 
the Secretary for your time. And it was good for some of my 
nuclear friends to hear some fossil fuel stuff, so that is why 
I definitely am all-of-the-above in my Congressional District, 
so it was probably good for them to hear some of that.
    In conclusion, again, I would like to thank you. You spent 
a wonderful amount of time in a subcommittee setting, which it 
is fairly unique in this process. I want to thank my Members on 
both sides who participated in today's hearing, and I want to 
remind Members that they have 10 business days to submit 
questions for the record, and I ask you, Mr. Secretary, to 
respond to those as promptly as you can.
    Mr. Moniz. Yes.
    Mr. Shimkus. And with that, the hearing is now adjourned.
    Mr. Moniz. Thank you, Mr. Chairman. Thank you, Mr. Tonko.
    [Whereupon, at 4:14 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
